<html>
<title> - LEGISLATIVE SOLUTIONS TO MAKE OUR NATION'S PIPELINES SAFER</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                LEGISLATIVE SOLUTIONS TO MAKE OUR NATION'S 
                                 PIPELINES SAFER

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON ENERGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 19, 2019

                               __________

                           Serial No. 116-48
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT FORMAT]                           


      Printed for the use of the Committee on Energy and Commerce

                   govinfo.gov/committee/house-energy
                        energycommerce.house.gov
                        
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
40-606 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------                        
                        
                    COMMITTEE ON ENERGY AND COMMERCE

                     FRANK PALLONE, Jr., New Jersey
                                 Chairman
BOBBY L. RUSH, Illinois              GREG WALDEN, Oregon
ANNA G. ESHOO, California              Ranking Member
ELIOT L. ENGEL, New York             FRED UPTON, Michigan
DIANA DeGETTE, Colorado              JOHN SHIMKUS, Illinois
MIKE DOYLE, Pennsylvania             MICHAEL C. BURGESS, Texas
JAN SCHAKOWSKY, Illinois             STEVE SCALISE, Louisiana
G. K. BUTTERFIELD, North Carolina    ROBERT E. LATTA, Ohio
DORIS O. MATSUI, California          CATHY McMORRIS RODGERS, Washington
KATHY CASTOR, Florida                BRETT GUTHRIE, Kentucky
JOHN P. SARBANES, Maryland           PETE OLSON, Texas
JERRY McNERNEY, California           DAVID B. McKINLEY, West Virginia
PETER WELCH, Vermont                 ADAM KINZINGER, Illinois
BEN RAY LUJAN, New Mexico            H. MORGAN GRIFFITH, Virginia
PAUL TONKO, New York                 GUS M. BILIRAKIS, Florida
YVETTE D. CLARKE, New York, Vice     BILL JOHNSON, Ohio
    Chair                            BILLY LONG, Missouri
DAVID LOEBSACK, Iowa                 LARRY BUCSHON, Indiana
KURT SCHRADER, Oregon                BILL FLORES, Texas
JOSEPH P. KENNEDY III,               SUSAN W. BROOKS, Indiana
    Massachusetts                    MARKWAYNE MULLIN, Oklahoma
TONY CARDENAS, California            RICHARD HUDSON, North Carolina
RAUL RUIZ, California                TIM WALBERG, Michigan
SCOTT H. PETERS, California          EARL L. ``BUDDY'' CARTER, Georgia
DEBBIE DINGELL, Michigan             JEFF DUNCAN, South Carolina
MARC A. VEASEY, Texas                GREG GIANFORTE, Montana
ANN M. KUSTER, New Hampshire
ROBIN L. KELLY, Illinois
NANETTE DIAZ BARRAGAN, California
A. DONALD McEACHIN, Virginia
LISA BLUNT ROCHESTER, Delaware
DARREN SOTO, Florida
TOM O'HALLERAN, Arizona
                                 ------                                

                           Professional Staff

                   JEFFREY C. CARROLL, Staff Director
                TIFFANY GUARASCIO, Deputy Staff Director
                MIKE BLOOMQUIST, Minority Staff Director
                         Subcommittee on Energy

                        BOBBY L. RUSH, Illinois
                                 Chairman
SCOTT H. PETERS, California          FRED UPTON, Michigan
MIKE DOYLE, Pennsylvania               Ranking Member
JOHN P. SARBANES, Maryland           ROBERT E. LATTA, Ohio
JERRY McNERNEY, California, Vice     CATHY McMORRIS RODGERS, Washington
    Chair                            PETE OLSON, Texas
PAUL TONKO, New York                 DAVID B. McKINLEY, West Virginia
DAVID LOEBSACK, Iowa                 ADAM KINZINGER, Illinois
G. K. BUTTERFIELD, North Carolina    H. MORGAN GRIFFITH, Virginia
PETER WELCH, Vermont                 BILL JOHNSON, Ohio
KURT SCHRADER, Oregon                LARRY BUCSHON, Indiana
JOSEPH P. KENNEDY III,               BILL FLORES, Texas
    Massachusetts                    RICHARD HUDSON, North Carolina
MARC A. VEASEY, Texas                TIM WALBERG, Michigan
ANN M. KUSTER, New Hampshire         GREG WALDEN, Oregon (ex officio)
ROBIN L. KELLY, Illinois
NANETTE DIAZ BARRAGAN, California
A. DONALD McEACHIN, Virginia
TOM O'HALLERAN, Arizona
LISA BLUNT ROCHESTER, Delaware
FRANK PALLONE, Jr., New Jersey (ex 
    officio)
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Bobby L. Rush, a Representative in Congress from the State 
  of Illinois, opening statement.................................     1
    Prepared statement...........................................     2
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................     3
    Prepared statement...........................................     5
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     6
    Prepared statement...........................................     7
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement\1\...................................     9
    Prepared statement...........................................    10

                               Witnesses

Christina Sames, Vice President, Operations and Engineering 
  Services, American Gas Association.............................    11
    Prepared statement...........................................    14
    Answers to submitted questions...............................   191
Chuck Lesniak III, Principal, CL3 Consulting.....................    27
    Prepared statement...........................................    29
Andrew J. Black, President and Chief Executive Officer, 
  Association of Oil Pipe Lines..................................    42
    Prepared statement...........................................    44
    Answers to submitted questions...............................   195
C.J. Osman, Director of Operations, Safety, and Integrity, 
  Interstate Natural Gas Association of America..................    54
    Prepared statement...........................................    56
    Answers to submitted questions...............................   199

                           Submitted Material

Discussion Draft, H.R. ___, the Safer Pipelines Act of 2019, 
  submitted by Mr. Rush..........................................   106
H.R. 2139, the Leonel Rondon Safe Pipelines Act, submitted by Mr. 
  Rush...........................................................   124
Letter of June 18, 2019, from Michael Aitken, President, National 
  Society of Professional Engineers, to Mr. Rush and Mr. Upton, 
  submitted by Mr. Rush..........................................   138
Letter of June 18, 2019, from Josh Chaise, Vice President, 
  Product Management, Water and Gas, Aclara Technologies, LLC, to 
  Mr. Rush and Mr. Upton, submitted by Mr. Rush..................   141
Letter of June 18, 2019, from Robin Rorick, Vice President, 
  Midstream & Industry Operations, American Petroleum Institute, 
  to Mr. Rush and Mr. Upton, submitted by Mr. Rush...............   143
Letter of June 18, 2019, from Matthew Hite, Vice President of 
  Government Affairs, GPA Midstream Association, to Mr. Pallone, 
  et al., submitted by Mr. Rush..................................   151
Letter of June 18, 2019, from International Union of Operating 
  Engineers, et al., to Mr. Rush and Mr. Upton, submitted by Mr. 
  Rush...........................................................   159
Analysis of the Protecting Our Infrastructure of Pipelines and 
  Enhancing Safety Act of 2019, Pipeline and Hazardous Materials 
  Safety Administration, submitted by Mr. Rush...................   161

----------

\1\ Mr. Flores presented Mr. Walden's statement orally.
Summary of the Safer Pipelines Act of 2019, Pipeline and 
  Hazardous Materials Safety Administration, submitted by Mr. 
  Rush...........................................................   182
Letter of June 19, 2019, from Robert H. Chalker, Chief Executive 
  Officer, NACE International, to Mr. Rush and Mr. Upton, 
  submitted by Mr. Rush..........................................   189

 
       LEGISLATIVE SOLUTIONS TO MAKE OUR NATION'S PIPELINES SAFER

                              ----------                              


                        WEDNESDAY, JUNE 19, 2019

                  House of Representatives,
                            Subcommittee on Energy,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:33 a.m. in 
room 2322, Rayburn House Office Building, Hon. Bobby L. Rush 
(chairman of the subcommittee) presiding.
    Members present: Representatives Rush, Peters, Doyle, 
McNerney, Tonko, Loebsack, Butterfield, Schrader, Kennedy, 
Veasey, Kuster, Barragan, O'Halleran, Blunt Rochester, Pallone 
(ex officio), Upton (subcommittee ranking member), Latta, 
Rodgers, Olson, Kinzinger, Griffith, Johnson, Bucshon, Flores, 
Walberg, Duncan, and Walden (ex officio).
    Staff present: Jeffrey C. Carroll, Staff Director; Omar 
Guzman-Toro, Policy Analyst; Rick Kessler, Senior Advisor and 
Staff Director, Brendan Larkin, Policy Coordinator; Elysa 
Montfort, Press Secretary; Lisa Olson, FERC Detailee; Alivia 
Roberts, Press Assistant; Tuley Wright, Energy and Environment 
Policy Advisor; Mike Bloomquist, Minority Staff Director; 
Theresa Gambo, Minority Human Resources/Office Administrator; 
Peter Kielty, Minority General Counsel; Ryan Long, Minority 
Deputy Staff Director; Mary Martin, Minority Chief Counsel, 
Energy and Environment and Climate Change; Brandon Mooney, 
Minority Deputy Chief Counsel, Energy; Brannon Rains, 
Legislative Clerk; Peter Spencer, Minority Senior Professional 
Staff Member, Environment and Climate Change.

 OPENING STATEMENT OF HON. BOBBY L. RUSH, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Rush. Good morning to all.
    I want to thank you all for attending today's important 
hearing entitled ``Legislative Solutions to Make Our Nation's 
Pipelines Safer,'' and I want to welcome all of our witnesses 
that will be testifying, including some who are returning from 
our May oversight hearing.
    This morning we will be examining the Safer Pipelines Act 
of 2019, as well as H.R. 2139, the Leonel Rondon Pipeline 
Safety Act, introduced by our colleagues from Massakchusetts: 
Ms. Trahan, Mr. Kennedy, and Mr. Moulton.
    Additionally, Members may also inquire about provisions of 
the Pipeline Safety Legislative Proposal introduced earlier 
this month by PHMSA.
    At the beginning, I want to be crystal clear. The 
discussion draft introduced by the majority side represents 
many provisions that Chairman Pallone, myself, and other 
Democratic colleagues would, ideally, like to see included in 
pipeline safety reauthorization.
    However, as we have said time and time again, both Chairman 
Pallone and I would like for this process to be transparent, to 
be open, and we look forward to working with members of the 
minority, PHMSA, and other important stakeholders to ultimately 
draft legislation that will receive wider bipartisan support.
    I hope that I am clear on this. We want to work with all 
the stakeholders and also with the minority side.
    With that said, I would like to highlight some of the 
important provisions included in the discussion draft that I 
believe would make our Nation's pipeline infrastructure safer 
and more secure.
    And one of the major components of the draft is that it 
would regulate many of the 435,000 miles of gathering lines, 
including all onshore pipelines operating above a specified 
pressure.
    I believe this is a commonsense measure that would help to 
inform and protect communities surrounding these gathering 
lines, which are completely unregulated in today's environment.
    The draft would also eliminate the, quote, ``grandfather 
clause,'' end of quote, so that pipelines built prior to July 
1, 1970 would no longer be exempt from testing for their 
maximum allowable operating pressure--another commonsense 
provision.
    The bill would eliminate the duplicative cost-benefit 
requirements, which is currently only imposed on PHMSA and 
which is at least partly responsible for the agency missing so 
many of its deadlines for rulemakings, according to former 
Administrator Quarterman.
    The legislation also mandates automatic leak detection and 
shut-off valves for pipelines located in high-consequence 
areas, a provision that should help to save vital time and 
potentially loss of life and property in the event of an 
accident.
    I believe that each of these provisions, as well as 
additional measures, would help bring additional resources and 
critical operational information to communities and to first 
responders, as both the subcommittee discussion draft and H.R. 
2139 does, and would help to strengthen our Nation's pipeline 
safety regime.
    I look forward to engaging the witnesses and also the 
members of the minority and working with all of you to enhance 
this legislation as we move through the committee process.
    [The legislation appears at the conclusion of the hearing. 
The prepared statement of Mr. Rush follows:]

                Prepared Statement of Hon. Bobby L. Rush

    I want to thank you all for attending today's important 
hearing entitled ``Legislative Solutions to Make Our Nation's 
Pipelines Safer.''
    I want to welcome all of our witnesses that will be 
testifying, including some who are returning from our May 
oversight hearing.
    This morning we will be examining the Safer Pipelines Act 
of 2019, as well as H.R. 2139, the ``Leonel Rondon Pipeline 
Safety Act,'' introduced by our colleagues from Massachusetts: 
Mr. Trahan, Mr. Kennedy and Mr. Moulton.
    Additionally, Members may also inquire about provisions of 
the Pipeline Safety Legislative Proposal introduced earlier 
this month by PHMSA.
    I want to be clear right from the outset that the 
discussion draft introduced by the majority side represents 
many provisions that Chairman Pallone, myself and many 
Democratic colleagues would, ideally, like to see included in 
pipeline safety reauthorization.
    However, as we have said on numerous occasions, both 
Chairman Pallone and I would like for this process to be 
transparent and open, and we look forward to working with 
Members of the minority, PHMSA and other important stakeholders 
to ultimately draft legislation that will receive wide, 
bipartisan support.
    With that being said, I would like to highlight some of the 
important provisions included in the discussion draft that I 
believe would make our Nation's pipeline infrastructure safer 
and more secure.
    One of the major components of the draft is that it would 
regulate many of the 435,000 miles of gathering lines, 
including all onshore pipelines operating above a specified 
pressure.
    I believe this is a commonsense measure that would help to 
inform and protect communities surrounding these gathering 
lines, which today remain completely unregulated.
    The draft would also eliminate the ``grandfather clause'' 
so that pipelines built prior to July 1, 1970, would no longer 
be exempt from testing for their maximum allowable operating 
pressure.
    The bill would eliminate the duplicative cost-benefit 
requirements, which is currently only imposed on PHMSA, and 
which is at least partly responsible for the agency missing so 
many of its deadlines for rulemakings, according to former 
Administrator Quarterman.
    The legislation also mandates automatic leak detection and 
shutoff valves for pipelines located in high consequence areas, 
a provision that should help save vital time and potentially 
loss of life and property in the event of an accident.
    I believe that each of these provisions, as well as 
additional measures that would help bring additional resources 
and critical operational information to communities and first-
responders, as both the subcommittee discussion draft and H.R. 
2139 does, would help to strengthen our Nation's pipeline 
safety regime.
    I look forward to engaging with today's witnesses on these 
proposals, and also working with my colleagues on the minority 
side to further enhance this legislation as we move through the 
committee process.
    With that I yield the balance of my time, and now I would 
like to recognize my friend and colleague, Ranking Member Upton 
for his opening statement.

    Mr. Rush. With that, I yield my time back and I recognize 
my good friend from the great State of Michigan, Ranking Member 
Upton, for 5 minutes.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Well, thank you, Mr. Chairman, for holding this 
hearing to continue our work on pipeline safety 
reauthorization, and I look forward to your statement ``working 
with all of us'' because I am going to sound a little tough, 
probably, in my opening statement.
    But I know that we can do better than this discussion draft 
before us.
    Pipeline safety has always been one of my highest 
priorities in every Congress and I was encouraged and 
optimistic that we could work on this bill together as we have 
in the past.
    In fact, if you look back at the history, I believe that 
when we passed previous reauthorizations, they passed under 
suspension, almost always with more than 400 votes if not by 
voice.
    But up until now, we on this side of the aisle have been 
pretty much left out of that drafting process. The discussion 
draft before us reflects that.
    In many respects, it appears that it will be more of a 
messaging bill than one that can truly advance safety practices 
and make it through the process and to the President to be 
signed before the end of September.
    And to be frank, this bill, I don't think, has a ghost of a 
chance of going anywhere in the Senate, let alone getting 
signed by the President in the way--the shape and form that it 
is now.
    So I know--I do know that we all share many of the same 
priorities when it comes to pipeline safety and we have worked 
together, and this is demonstrated by the strong bipartisan 
work that the committee produced the last time we reauthorized 
PHMSA and enacted real pipeline safety reform. We need to 
continue on those bipartisan practices.
    So I urge you today to hit the button reset. Let us open 
the process up. Let us work together across the aisle rather 
than rushing this draft through the subcommittee.
    Let us give PHMSA an opportunity to testify on their 
reauthorization proposal and provide us with the technical 
assistance on the drafting. So far, they have not done so.
    We owe it to our constituents to have a more open and 
transparent process where all of the relevant stakeholders, 
particularly PHMSA, when they could have an opportunity to 
present their views on the reform proposals.
    One, I believe that we have got to make sure that PHMSA and 
the States have the resources and the tools that they need to 
perform their pipeline safety responsibilities.
    Second, we need to hold PHMSA's feet to the fire 
accountable for completing the outstanding congressional 
mandates and finishing the pending rulemakings left over from 
prior reauthorizations, absolutely.
    And third, we need to make sure that PHMSA, State 
regulators, and pipeline operators are incorporating lessons 
learned from prior accidents, integrating new technologies and 
continue to improve on safety.
    I am afraid that this draft falls short in several critical 
areas. For one, it appears that the draft could slow the pace 
of PHMSA's rulemaking by encouraging frivolous lawsuits that 
result in sue and settle agreements, potentially diverting 
agency resources from developing important safety regulations.
    It could also lengthen the interagency review process by 
having PHMSA and OMB in complete rulemakings that fail to 
consider the full range of costs and benefits.
    This draft may also have the unintended effect of weakening 
pipeline safety--not a good thing. Particularly concerned that 
the draft would arbitrarily mandate certain technologies such 
as automatic valves on liquid pipelines, which could lead to 
accidental pipeline ruptures when that liquid backs up.
    This draft could also prohibit direct assessment of 
pipelines, which is a valuable method for evaluating and 
managing corrosion threats. The discussion draft may also 
divert PHMSA's limited resources by expanding its jurisdiction 
to include regulation of gathering lines, which are effectively 
managed at the State level today.
    Finally, I am concerned that the draft does nothing to 
encourage innovation or the adoption of new pipeline safety 
technologies or safety processes.
    It also fails to incentivize pipeline operators to 
voluntarily exceed minimum safety requirements. I don't think 
that the draft goes far enough to prevent cyber attacks, 
something we have all been worried about, and discourage bad 
actors from damaging pipeline facilities.
    So, as we move forward, I plan to keep an open mind, 
especially given our history with pipeline safety and our good 
working excellent relationship.
    But if we hit recess and take--excuse me, if we hit reset 
and take our time on this rather than speeding ahead to 
subcommittee markup next week, I think we will have a much 
better bill than what's before us today.
    And with that, I yield back.
    [The prepared statement of Mr. Upton follows:]

                 Prepared Statement of Hon. Fred Upton

    Thank you, Mr. Chairman for holding this hearing to 
continue our work on pipeline safety reauthorization. Pipeline 
safety is one of my highest priorities this Congress, and I had 
hoped we could work on this bill together. Unfortunately, up 
until now, Republicans have been left out of the drafting 
process.
    The discussion draft before us today reflects this. In many 
respects, it appears to be more of a messaging bill than one 
that will truly advance safety practices and make it through 
the process and onto the President's desk. To be frank, this 
bill does not have a chance of passing the Senate and getting 
signed by the President.
    Mr. Chairman, I believe we all share many of the same 
priorities when it comes to pipeline safety. This is 
demonstrated by the strong bi-partisan work this committee 
produced the last time we reauthorized PHMSA and enacted 
pipeline safety reforms. We should continue to build on those 
bi-partisan practices this time around.
    I urge you to hit reset. Let's open this process up and 
work together across the aisle. Rather than rushing this draft 
through the subcommittee, let's give PHMSA an opportunity to 
testify on their reauthorization proposal and provide us with 
technical assistance on the drafting. We owe it to our 
constituents to have a more open and transparent process, where 
all the relevant stakeholders have an opportunity to present 
their views and reform proposals. I have three main goals for 
reauthorization:
    First, I believe that we need to make sure that PHMSA and 
the States have the resources and the tools they need to 
perform their pipeline safety responsibilities.
    Second, we need to hold PHMSA accountable for completing 
the outstanding Congressional mandates and finishing the 
pending rulemakings leftover from prior reauthorizations.
    Third, we need to ensure that PHSMA, State regulators, and 
pipeline operators are incorporating lessons-learned from prior 
accidents, integrating new technologies, and continuing to 
improve safety.
    I am afraid the discussion draft before us today falls 
short in several critical areas. For one, it appears that the 
draft could slow the pace of PHMSA's rulemakings by encouraging 
frivolous lawsuits that result in sue and settle agreements, 
potentially diverting agency resources from developing 
important safety regulations. It could also lengthen the 
interagency review process by having PHMSA send OMB incomplete 
rulemakings that fail to consider the full range of costs and 
benefits.
    The discussion draft may also have the unintended effect of 
weakening pipeline safety. I am particularly concerned that the 
draft would arbitrarily mandate certain technologies, such as 
automatic valves on liquid pipelines, which could lead to 
accidental pipeline ruptures. The draft would also prohibit 
direct assessment of pipelines, which is a valuable method for 
evaluating and managing corrosion threats. The discussion draft 
may also divert PHMSA's limited resources by expanding its 
jurisdiction to include regulation of gathering lines, which 
are effectively managed at the State level today.
    Finally, I am concerned the draft does nothing to encourage 
innovation or the adoption of new pipeline safety technologies 
or safety processes. It also fails to incentivize pipeline 
operators to voluntarily exceed minimum safety requirements. I 
also don't think the draft goes far enough to prevent cyber 
attacks and discourage bad actors from damaging pipeline 
facilities.
    As we move ahead, I plan to keep an open mind, especially 
given our history with pipeline safety, and our good working 
relationship. I hope that after today we can hit ``reset'' and 
take our time on this, rather than speeding ahead to a 
subcommittee markup next week. This is such an important issue 
and it has historically been a fully bipartisan process.
    With that, I look forward to the testimony of our witnesses 
and working closely with you in the weeks ahead. Thank you, I 
yield back.

    Mr. Rush. I thought you were my friend.
    [Laughter.]
    Mr. Upton. My buddy.
    Mr. Rush. The Chair now recognizes the chairman of the full 
committee, Mr. Pallone, for 5 minutes.

OPENING STATEMENT OF HON. FRANK PALLONE, Jr., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman.
    Today's hearing focuses on two legislative proposals to 
improve pipeline safety in America. In May, the subcommittee 
held an oversight hearing to hear from stakeholders about what 
changes are needed as we consider reauthorization of the 
Pipeline Safety Act.
    Since we last reauthorized this critical Federal program--3 
years ago this week--several major pipeline incidents have 
occurred, underscoring the need for additional reforms to our 
Federal pipeline safety programs.
    Last year, a failure in Massachusetts' Merrimack Valley 
killed one person, injured 21 others, and damaged more than 130 
homes.
    We have made progress on Federal pipeline safety over the 
last 20 years, since the Olympic gasoline pipeline explosion in 
Bellingham, Washington, killed three young people.
    But preventable incidents still occur and we must do 
everything in our power to ensure our national pipeline network 
is as safe as possible.
    The Safer Pipelines Act of 2019, a discussion draft the 
subcommittee will review today, makes several critical changes 
to the Federal pipeline safety program.
    A major overarching problem with the Federal pipeline 
safety program is that it takes the Pipeline and Hazardous 
Materials Safety Administration--PHMSA--too long to finalize 
congressional mandates.
    There are still outstanding rulemakings that were required 
in 2011 and 2016 reauthorizations that PHMSA has failed to 
finish, and this is unacceptable.
    At our oversight hearing in May, we heard that the biggest 
cause for delay is the prescriptive cost-benefit analysis 
required by the 1996 reauthorization.
    The discussion draft removes this duplicative requirement 
while still ensuring PHMSA rules are subject to the same 
economic analysis that every other major rule receives.
    The proposal also restores the mechanism for citizens to 
pursue legal action to compel PHMSA to fulfill its statutory 
duties, which was a major issue in the aftermath of the 2010 
San Bruno pipeline explosion that killed eight people in 
Northern California.
    San Francisco sued the Federal Government for having 
abjectly failed to enforce safety standards. But the suit was 
dismissed because the court held that the law did not permit 
mandamus-type citizen suits.
    Another critical area addressed in the discussion draft is 
the need for modifying the ridiculously high bar for imposing 
criminal penalties in current law.
    The proposal changes the standard to ``knowingly or 
recklessly,'' which would bring the pipeline criminal standard 
in line with that of the Hazmat statute.
    The Government must be able to hold companies accountable 
when they knowingly or recklessly ignore the law.
    The Trump administration has submitted its own 
reauthorization proposal, which includes a provision to 
criminalize pipeline construction protests.
    I have no intention of allowing a pipeline safety bill to 
be used as a vehicle for stifling legitimate dissent and 
protest. That provision is dead on arrival as far as I am 
concerned.
    There are, however, a number of useful ideas within the 
administration's proposal and I look forward to working with my 
colleagues and the Department of Transportation to find common 
ground on these issues.
    The subcommittee will also review the Leonel Rondon 
Pipeline Safety Act, introduced by Representatives Trahan, 
Kennedy, and Moulton. This bill is a direct response to the 
failures that occurred during the Merrimack Valley incident in 
Massachusetts and it would improve the management of gas 
pipeline distribution systems and fix gaps in safety 
regulations that led to the tragedy in Massachusetts.
    I commend the bill sponsors for their thoughtful effort and 
I am hopeful we can include several ideas from their proposal 
in a final pipeline safety reauthorization bill.
    The ideas included in the Safer Pipelines Act are important 
to me and to communities around the country. But this is a 
draft and serves as a starting point for discussion and 
collaboration, just as this hearing is a means to get all ideas 
for reauthorization out into the open and onto the table.
    So I look forward to hearing from my committee colleagues 
on both sides of the aisle today on their ideas for 
reauthorization because I hope and expect that the final 
product the committee reports will be a strong bipartisan bill 
and I am committed to working in a bipartisan manner to update 
and improve this critical Federal program so that we can 
produce a final bill that we can all be proud of and, 
obviously, gets passed in the Senate and signed by the 
President.
    So thank you, Mr. Chairman. I yield back.
    [The prepared statement of Mr. Pallone follows:]

             Prepared Statement of Hon. Frank Pallone, Jr.

    Today's hearing focuses on two legislative proposals to 
improve pipeline safety in America. In May, the subcommittee 
held an oversight hearing to hear from stakeholders about what 
changes are needed as we consider reauthorization of the 
Pipeline Safety Act.
    Since we last reauthorized this critical Federal program--3 
years ago this week--several major pipeline incidents have 
occurred, underscoring the need for additional reforms to our 
Federal pipeline safety programs. Last year, a failure in 
Massachusetts' Merrimack Valley killed one person, injured 21 
others and damaged more than 130 homes.
    We have made progress on Federal pipeline safety over the 
last 20 years, since the Olympic Gasoline Pipeline explosion in 
Bellingham, Washington, killed three young people. But 
preventable incidents still occur, and we must do everything in 
our power to ensure our national pipeline network is as safe as 
possible.
    The Safer Pipelines Act of 2019, a discussion draft the 
subcommittee will review today, makes several critical changes 
to the Federal pipeline safety program. A major, overarching 
problem with the Federal pipeline safety program is that it 
takes the Pipeline and Hazardous Materials Safety 
Administration (PHMSA, FIM-zuh) too long to finalize 
Congressional mandates. There are still outstanding rulemakings 
that were required in the 2011 and 2016 reauthorizations that 
PHMSA has failed to finish. This is unacceptable. At our 
oversight hearing in May, we heard that the biggest cause for 
delay is the prescriptive cost-benefit analysis required by the 
1996 reauthorization. The discussion draft removes this 
duplicative requirement, while still ensuring PHMSA rules are 
subject to the same economic analysis that every other major 
rule receives.
    The proposal also restores the mechanism for citizens to 
pursue legal action to compel PHMSA to fulfill its statutory 
duties, which was a major issue in the aftermath of the 2010 
San Bruno pipeline explosion that killed eight people in 
Northern California. San Francisco sued the Federal Government 
for having abjectly failed to enforce safety standards, but the 
suit was dismissed because the court held that the law did not 
permit mandamus-type citizen suits.
    Another critical area addressed in the discussion draft is 
the need for modifying the ridiculously high bar for imposing 
criminal penalties in current law. The proposal changes the 
standard to ``knowingly or recklessly,'' which would bring the 
pipeline criminal standard in line with that of the Hazmat 
statute. The Government must be able to hold companies 
accountable when they knowingly or recklessly ignore the law.
    The Trump administration has submitted its own 
reauthorization proposal, which includes a provision to 
criminalize pipeline construction protests. I have no intention 
of allowing a pipeline safety bill to be used as a vehicle for 
stifling legitimate dissent and protest. That provision is dead 
on arrival as far as I'm concerned. There are, however, a 
number of useful ideas within the administration's proposal and 
I look forward to working with my colleagues and the Department 
of Transportation to find common ground on these issues.
    The subcommittee will also review the Leonel Rondon 
Pipeline Safety Act, introduced by Representatives Trahan, 
Kennedy and Moulton. This bill is a direct response to the 
failures that occurred during the Merrimack Valley incident in 
Massachusetts. It would improve the management of gas pipeline 
distribution systems and fix gaps in safety regulations that 
led to the tragedy in Massachusetts. I commend the bill 
sponsors for their thoughtful effort, and I am hopeful we can 
include several ideas from their proposal in a final pipeline 
safety reauthorization bill.
    The ideas included in the Safer Pipelines Act are important 
to me and to communities around the country. But this is a 
draft and serves as a starting point for discussion and 
collaboration, just as this hearing is a means to get all ideas 
for reauthorization out into the open and onto the table.
    I look forward to hearing from my committee colleagues on 
both sides of the aisle today on their ideas for 
reauthorization because I hope and expect that the final 
product the committee reports will be a strong, bipartisan 
bill. I am committed to working in a bipartisan manner to 
update and improve this critical Federal program so that we 
produce a final bill that we can all be proud of and support.

    Mr. Rush. The gentleman yields back.
    The Chair now recognizes Mr. Flores, who is going to read 
the statement of the ranking member, Mr. Walden.
    Mr. Flores, you're recognized for 5 minutes.
    [Whereupon Mr. Flores read Mr. Walden's statement.]

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Flores. Thank you, Mr. Chairman.
    The committee's work to reauthorize and modernize the 
Nation's pipeline safety program is important and deserves 
close, careful, and bipartisan attention.
    This is the hallmark of this committee's work, especially 
when it comes to safety-related legislation. While it looked 
like that we were on the right track a month ago, we haven't 
made much progress since then.
    In part, I think this is because we have not been adhering 
completely to our past bipartisan practices. Judging by the 
discussion draft before us today, it appears that the Democrats 
have chosen to go along up until this point, releasing a 
partisan draft, and that on our initial read it requires a lot 
of work.
    Mr. Chairman, Members deserve the ability to gather the 
views of all relevant stakeholders and to understand the full 
impact of legislation before voting on it.
    The discussion draft before us today was only released last 
week, and the process was so rushed that, as I understand it, 
PHMSA didn't have time to prepare testimony.
    While we were fortunate to have PHMSA testify back in May, 
it has come to my attention that our Members' questions for the 
record still have not been submitted. This is over 6 weeks 
later.
    So here we are today with many unanswered questions for 
PHMSA and facing the prospect of a subcommittee markup next 
week.
    Mr. Chairman, as you know, pipeline safety reauthorization 
has, historically, been a fully bipartisan process. Under the 
Republican majority, Democrats and Republicans sat down 
together to work through the issues and to draft a bill.
    I am disappointed that more than a month has gone by and we 
still have nothing to show for it. As we move ahead, I hope 
that we can get a commitment to slow down and work together.
    While we may not agree on everything, I believe that there 
are many areas where we can strengthen the law to drive 
innovation and to improve safety.
    First and foremost, we should recognize that pipeline 
safety is a shared responsibility between PHMSA, the States, 
and pipeline operators.
    There's a lot that Congress can do to encourage pipeline 
operators to improve their performance. However, I have serious 
concerns over the discussion draft's one-size-fits-all approach 
and overly prescriptive mandates.
    This administration inherited a number of missed deadlines 
for pipeline safety rulemakings from the prior administration. 
However, PHMSA officials have worked hard and have made 
substantial progress in this regard.
    Certain impacts from this discussion draft actually could 
delay these important rulemakings to improve safety and to bog 
down the process even further. This does not serve the public 
interest.
    While it can be tempting, we should not get too far ahead 
of ourselves. Congress should recognize and account for the 
safety improvements that will be implemented through the 
outstanding congressional mandates in the pending rulemakings.
    PHMSA is making progress on several important regulations 
addressing hazardous liquid pipelines, gas pipelines, valve and 
rupture protection, and plastic pipes, among other regulatory 
actions.
    Together, these rules represent many years of work and we 
should not pull out the rug and disrupt the progress by 
injecting more regulatory uncertainty.
    Our reauthorization bill should reflect this reality by 
continuing to encourage a cooperative flexible approach to 
pipeline safety.
    We should make sure that PHMSA and the States have adequate 
resources to inspect and protect the Nation's pipeline system. 
We should hold PHMSA accountable for completing overdue 
rulemakings. And finally, we should encourage pipeline 
operators to adopt new technologies and to continue to improve 
safety.
    With this, Mr. Chairman, thank you for holding this 
hearing, and I look forward to hearing the testimony of the 
witnesses.
    I yield back the balance of my time.
    [The prepared statement of Mr. Walden follows:]

                 Prepared Statement of Hon. Greg Walden

    The committee's work to reauthorize and modernize the 
Nation's pipeline safety program is important and deserves 
close, careful, and bi-partisan attention. This is the hallmark 
of the committee's work, especially when it comes to safety 
related legislation.
    While it looked like we were on the right track a month 
ago, we haven't made much progress since then. In part, I think 
this is because we have not been adhering completely to our 
past bipartisan practices. Judging by the discussion draft 
before us today, it appears that the Democrats have chosen to 
go it alone up until this point, releasing a partisan draft 
that on our initial read requires a lot of work.
    Mr. Chairman, Members deserve the ability to gather the 
views of all relevant stakeholders and understand the full 
impact of legislation before voting on it. The discussion draft 
before us today was only released last week, and the process 
was so rushed that, as I understand it, PHMSA didn't have time 
to prepare testimony.
    While we were fortunate to have PHMSA testify back in May, 
it has come to my attention that our Member's Questions for the 
Record have not been submitted. So here we are today, with many 
unanswered questions for PHMSA, and facing the prospect of a 
subcommittee markup next week.
    Mr. Chairman, as you know, pipeline safety reauthorization 
has historically been a fully bipartisan process. Under the 
Republican majority, Democrats and Republicans sat down 
together to work through the issues and draft a bill. I am 
disappointed that a month has gone by and we have nothing to 
show for it.
    As we move ahead, I hope that we can get a commitment to 
slow down and work together. While we may not agree on 
everything, I believe there are many areas where we can 
strengthen the law to drive innovation and improve safety.
    First and foremost, we should recognize that pipeline 
safety is a shared responsibility between PHMSA, the States, 
and pipeline operators. There is a lot Congress can do to 
encourage pipeline operators to improve their performance; 
however, I have serious concerns by the discussion draft's 
``one size fits all'' approach and overly prescriptive 
mandates.
    This administration inherited a number of missed deadlines 
for pipeline safety rulemakings; however, PHMSA officials have 
worked hard and made substantial progress. Certain impacts from 
this discussion draft actually could delay these important 
rulemakings to improve safety and bog down the process even 
further. This will not serve the public interest.
    While it can be tempting, we should not get too far ahead 
of ourselves. Congress should recognize and account for the 
safety improvements that will be implemented through the 
outstanding congressional mandates and pending rulemakings.
    PHMSA is making progress on several important regulations 
addressing hazardous liquid pipelines, gas pipelines, valve and 
rupture protection, and plastic pipes, among other regulatory 
actions. Together, these rules represent many years of work, 
and we should not pull out the rug and disrupt the progress by 
injecting more regulatory uncertainty.
    Our reauthorization bill should reflect this reality by 
continuing to encourage a cooperative, flexible approach to 
pipeline safety. We should make sure PHMSA and States have 
adequate resources to inspect and protect the Nation's pipeline 
system; we should hold PHMSA accountable for completing overdue 
rulemakings; and finally, we should encourage pipeline 
operators to adopt new technologies and continue to improve 
safety.
    With that, Mr. Chairman, thank you for holding this hearing 
and I look forward to the testimony of the witnesses. I yield 
back the balance of my time.

    Mr. Rush. The gentleman yields back.
    The Chair would like to remind Members that, pursuant to 
committee rules, all Members' written opening statement shall 
be made part of the record.
    I would like to now introduce our panel of witnesses for 
today's hearing.
    On my left is Ms. Christina Sames, the vice president of 
operations and engineering, of the American Gas Association. 
Next to her is Mr. Chuck Lesniak, the principal of CL3 
Consulting, on behalf of the Pipeline Safety Trust.
    Next to Mr. Lesniak is Mr. Andrew Black. Mr. Black is the 
president and CEO of the Association of Oil Pipe Lines. And 
last but not least is Mr. Christopher ``C.J.'' Osman. He is the 
director of operations, safety, and integrity of the--for the 
Interstate Natural Gas Association of America.
    We want to thank all of our witnesses for joining us today 
and we look forward to your testimony. At this time, the Chair 
will now recognize each witness for 5 minutes to provide their 
opening statement.
    But let me caution you before we begin. I want to explain 
this lighting system. There is a system here, you know. In 
front of you is a series of lights. The light will initially be 
green at the start of your opening statement.
    The light will turn yellow when you have 1 minute 
remaining, and please begin to wrap up your statement at that 
point. The light will turn red when your time expires.
    If you continue, then we will put you over in the corner 
with a dunce cap on.
    [Laughter.]
    Mr. Rush. Ms. Sames, you are now recognized for 5 minutes 
for the purposes of an opening statement.

 STATEMENTS OF CHRISTINA SAMES, VICE PRESIDENT, OPERATIONS AND 
 ENGINEERING SERVICES, AMERICAN GAS ASSOCIATION; CHUCK LESNIAK 
III, PRINCIPAL, CL3 CONSULTING; ANDREW J. BLACK, PRESIDENT AND 
 CHIEF EXECUTIVE OFFICER, ASSOCIATION OF OIL PIPE LINES; C.J. 
     OSMAN, DIRECTOR OF OPERATIONS, SAFETY, AND INTEGRITY, 
         INTERSTATE NATURAL GAS ASSOCIATION OF AMERICA

                  STATEMENT OF CHRISTINA SAMES

    Ms. Sames. And I don't want to be put in the corner.
    So, Chairman Rush, Ranking Member Upton, and members of the 
subcommittee, I am Christina Sames, vice president of 
operations and engineering at the American Gas Association.
    Prior to AGA, I worked at Pipeline Research Council 
International and spent 12 years at PHMSA, where I worked to 
advance pipeline safety initiatives.
    AGA represents more than 200 local energy companies that 
deliver natural gas to 74 million customers. The gas utilities 
distribution pipelines are the final link in the delivery chain 
that brings natural gas from the well head to the burner tip.
    AGA member employees live in the communities that they 
serve, interact daily with the customers and State regulators 
who oversee pipeline safety locally.
    Safety is at the very core of AGA and its members, and we 
go well beyond regulations to improve pipeline safety. We take 
pride in the overall safety performance but recent incidents 
are a painful reminder we must continue to raise the bar on 
safety. Any incident is one incident too many.
    The industry is supportive of flexible, risk-based, and 
practical improvements to pipeline safety that reflect lessons 
learned from past pipeline incidents.
    There's little in the House Energy and Commerce bill that 
accomplishes that particular goal. For example, the proposed 
legislation removes the requirement that regulations be 
reasonable or cost effective.
    The cost-benefit analysis was mandated to ensure that 
regulations do not put an undue burden on customers that bear 
the cost of mandates without a measurable improvement to the 
safe delivery of natural gas. That's logical, and should 
continue as the criteria for developing regulations.
    There are other provisions in the Energy and Commerce bill 
and the Markey-Trahan bill that do not appear to improve 
pipeline safety. For example, eliminating the use of direct 
assessment, a tool that not only determines that corrosion has 
occurred but it is predictive and indicates where corrosion 
could occur.
    That should be allowed to be continued. Requiring operators 
to send integrity management plans, operation and maintenance 
manuals, pipeline characteristics, and many other documents to 
emergency responders.
    In my discussions over the years with first responders, 
their concerns have centered around getting way too much 
information that sits on the shelf. They want condensed, 
meaningful, and understandable information.
    Increasing civil penalties, expanding criminal liability to 
include recklessness, and adding a provision that encourages 
litigation against PHMSA will do little to improve pipeline 
safety.
    Core to a strong safety culture is encouraging self-
disclosure within a company and with the regulators. A more 
productive alternative would be to encourage voluntary sharing 
of safety issues as proposed by the administration bill.
    AGA is supportive of actually many of the provisions in the 
administration's bill, including the safety incentives program 
that encourages companies to exceed regulations, pipeline 
safety pilot programs for technology advances, and criminal 
penalties for those that damage, destroy, vandalize, or 
otherwise disrupt operation and create pipeline safety issues.
    During the pipeline safety reauthorization process, AGA 
asks the subcommittee to consider four high-level priorities.
    One, preserve industry's engagement in pipeline safety 
rulemaking by upholding PHMSA's regulatory process.
    Two, provide support, flexibility, and regulations by 
recognizing that gas distribution systems differ, and avoid 
one-size-fits-all prescriptive regulations.
    Three, don't obstruct pipeline safety replacement programs 
at the State level via new mandates that delay replacements or 
require replacements faster than work can be accomplished 
safely, reliably, and without compromising quality.
    And four, focus on provisions that improve pipeline safety 
by avoiding extraneous legal, regulatory, and administrative 
provisions that really hamper the regulatory process.
    Our full statement covers a number of pipeline safety 
reauthorization topics. I would like to reiterate industry's 
commitment to safety. Public safety, worker safety, and 
pipeline safety are all core values that affect everything that 
we do and how we do it.
    We know that without safety nothing else matters.
    Thank you for the opportunity to participate in this 
hearing and I look forward to your questions.
    [The prepared statement of Ms. Sames follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Rush. The Chair now recognizes Mr. Lesniak for 5 
minutes.

                 STATEMENT OF CHUCK LESNIAK III

    Mr. Lesniak. Thank you.
    Good morning, Chairman Rush, Ranking Member Upton, and 
members of the committee. Thank you for inviting me to speak 
about pipeline safety today.
    Before we get into various pipeline safety issues, let me 
give you a brief overview of where we stand today regarding the 
safety of pipelines in this country.
    According to PHMSA data, over the past 5 years there's been 
on average nearly two reportable pipeline incidents every day 
that cause the death or hospitalization of over seven people 
every month.
    These incidents have caused nearly $2.4 billion in property 
damage and released over 18 million gallons of hazardous 
liquids into the environment.
    While progress has been made over the last 20 years and 
pipelines are a critical part of our Nation's energy 
infrastructure, pipelines are near our homes, schools, shopping 
centers, lakes, rivers, and coastlines and we simply must do 
better to protect our communities and the environment.
    We thank the committee for releasing a strong bill for 
discussion as part of this year's reauthorization process and 
we also thank and recognize the Members from Massachusetts for 
their efforts to introduce good legislation to address the 
tragedy that occurred in the Merrimack Valley last year.
    We support the vast majority of the provisions in these 
bills. We certainly support the parts of these bills that make 
it easier to pass needed regulations and to meaningfully 
enforce those regulations.
    This would include Section 4 of this committee's bill to 
correct the unnecessary duplication of cost-benefit 
requirements in the statute; Sections 8 and 9, making both the 
civil and criminal penalties more meaningful; and Section 7 
that helps to align these statutes with many others, allowing 
citizens to petition the courts when PHMSA fails in its duty to 
carry out congressional mandates.
    It has long been understood that part of the pipeline 
safety problem in this country is that PHMSA and its State 
regulatory partners are often underfunded for the task at hand.
    We thank Congress for their previous support to expand the 
number of PHMSA inspectors and we strongly support the level of 
appropriations in this committee's draft bill to support the 
needed increases to the reimbursement rates for State programs, 
allow PHMSA to better conduct data and risk analysis, their 
special program implementation, and for enforcement and 
regulatory efforts.
    As the trust has pointed out for over a decade, according 
to PHMSA there are over 435,000 miles of unregulated natural 
gas gathering lines in this country, many of which are 
functionally the same as gas transmission pipelines and present 
similar hazards to the public and the environment.
    We strongly support the change in definitions in Section 3 
that would bring the higher pressure gathering lines under some 
sort of Federal minimum standards.
    We also believe that it's very important that the location 
of these lines be known to regulators, emergency responders, 
and surrounding communities. So we also hope you will amend 
Section 60132 of the statute to remove the harmful clause that 
exempts these pipelines from being included in the national 
pipeline mapping system.
    We really appreciate the provision of this committee's bill 
in the Leonel Rondon Pipeline Safety Act that proposes to make 
clear in the statute what PHMSA has failed to make clear in the 
regulations.
    For well over 20 years, the NTSB, Congress, and others have 
tried to get PHMSA to implement meaningful rules regarding leak 
detection and automated valves.
    We support Section 5's effort to make this clear by adding 
it directly to the statute. We also suggest that it be made 
clear that PHMSA must adopt a clear standard for effectiveness 
for any new rules regarding leak detection.
    We support Section 2, 3, 4, and 6 of the Leonel Rondon 
Pipeline Safety Act which clarifies important lessons 
unfortunately learned through the Merrimack Valley tragedy.
    We continue to hear complaints from local emergency 
responders about the difficulty in obtaining meaningful 
information about the pipelines that run through their 
communities.
    We support Section 6 of this bill that will go a long way 
to alleviating this problem and ask that you ensure it includes 
the information that NTSB has recommended be provided to 
emergency responders.
    The administration has also recently released the 
Protecting Our Infrastructure of Pipelines Enhancing Safety Act 
of 2019.
    While it's a substantially weaker bill than what this 
committee has drafted, there are many good provisions in it 
that we support, some of which are correctly aimed at fixing 
issues learned in the Merrimack Valley tragedy.
    There are also some troubling sections in the 
administration's bill that we hope you will not adopt. Please 
see our written testimony for specifics.
    I see my time is almost up and so thank you again for 
inviting me to testify today. I am glad to answer any 
questions.
    [The prepared statement of Mr. Lesniak follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Rush. The Chair now recognizes Mr. Black for 5 minutes 
for the purposes of an opening statement.

                  STATEMENT OF ANDREW J. BLACK

    Mr. Black. Thank you, Mr. Chairman, Ranking Member.
    I am Andy Black, president and CEO of the Association of 
Oil Pipe Lines. AOPL represents owners and operators of 
pipelines transporting crude oil, refined petroleum products 
like gasoline, diesel, jet fuel, and home heating oil, and 
industrial products like propane and ethane.
    Pipeline safety reauthorization legislation offers us an 
opportunity to continue improvements in pipeline safety. We all 
seek safer pipelines as the subcommittee's discussion draft 
title calls for.
    Reauthorization should be a place where we can collaborate, 
work on proposals that bring stakeholders together, and protect 
each other from harm.
    Unfortunately, the discussion draft misses some 
opportunities for a shared path of collaboration and eliminates 
other opportunities in the law today.
    Instead, the liquid pipelines industry asks that we move 
forward with positive solutions to harness the benefits of 
innovation and technology to improve pipeline safety, bring 
stakeholders together to improve PHMSA programs and 
regulations, and protect the public environment from harm.
    Technology and innovation offer opportunities to move 
pipeline safety forward. High-tech inspection tools can now 
scan pipelines like an MRI or an ultrasound at the doctor's 
office. And yet, crucial sessions of PHMSA's inspection and 
maintenance regulations are nearly 20 years old and have gaps 
that fail to address problems like cracking in pipelines.
    AOPL recommends a pilot program to provide PHMSA the data 
it needs to modernize and fill gaps in regulations. Improving 
how PHMSA performs its pipeline safety mission is important to 
liquid pipeline operators.
    The industry joined with PHMSA, State regulators, pipeline 
safety advocates, environmental advocates, and representatives 
of organized labor to recommend creation of a voluntary 
information sharing program.
    This collaborative program, modelled after a successful FAA 
program for the aviation industry and recommended by a past 
Congress, would empower pipeline safety stakeholders to jointly 
solve pipeline safety issues.
    Unfortunately, authorization for this program is not in the 
discussion draft. Instead, there are proposals that drive 
stakeholders apart and make it hard for PHMSA to improve 
pipeline safety.
    The discussion draft eliminates requirements for PHMSA to 
benefit from its technical advisory committees and takes away 
seats at the table for safety advocacy groups, environmental 
groups and pipeline operators during the rulemaking process.
    The discussion would deprive the public of expert 
discussion of the costs and benefits of proposals. The 
discussion draft would even eliminate requirements that PHMSA 
consider whether its regulations would be reasonable.
    I can hardly imagine the subcommittee wants PHMSA to 
consider only proposals that would be unreasonable.
    The discussion draft proposal to add a criminal reckless 
standard would chill a core component of pipeline safety. 
Operators assess and rank the risks of their pipeline systems 
and then perform preventative maintenance based on a 
prioritization of risk.
    Comprehensive risk management is at the heart of safety 
management systems that have been encouraged by the NTSB and 
PHMSA.
    Changing the standard to reckless would lead to second 
guessing, technical risk assessment decisions, with the benefit 
of 20/20 hindsight to make a case that an operator should have 
known that a risk would have caused an incident.
    Pipeline operators also may be discouraged from openly 
sharing information about incidents, a key component of our 
programs to improve safety industry wide. Applying an ambiguous 
legal standard of recklessness by criminalizing pipeline risk 
assessment will not advance pipeline safety.
    The discussion draft provision to require automatic shut 
off valves on liquid pipelines would actually hurt pipeline 
safety by creating the risk of quickly forcing closed pipeline 
valves in an uncontrolled way, as the ranking member said, 
leading to a pressure surge and possible pipeline rupture.
    GAO studied this at the request of Congress and confirmed 
several cases in the past where similar conditions led to 
ruptures and releases of gasoline and crude oil.
    Finally, the pipeline industry believes it is important to 
protect the surrounding public and the environment from attacks 
on pipelines. There are loopholes to close in Federal law that 
prevent enforcement against dangerous valve-turning activity 
condemned by pipeline safety advocates as well as the industry.
    We commend PHMSA for putting forward a proposal to protect 
the public and the environment from attacks.
    Yesterday organized labor, through the International Union 
of Organized Engineers, the Laborers' International Union of 
North America, North America's Building Trade Unions, and the 
United Association of Plumbers and Pipefitters added their 
support for this effort, writing, ``For the safety of American 
families, the environment, and the skilled trade workers 
dedicated to safely building and maintaining our 
infrastructure, Congress should prioritize closing those 
loopholes in Federal law.''
    We hope to work with subcommittee on tailored legislation 
to address this safety priority. I hope we can come together 
around these proposals for greater stakeholder collaboration, 
greater use of new technologies and innovation, and greater 
ways to improve PHMSA programs and protect the public from 
harm.
    Thank you.
    [The prepared statement of Mr. Black follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Rush. The Chair thanks the gentleman.
    The Chair now recognizes Mr. Owesman--Osman?
    Mr. Osman. Osman.
    Mr. Rush [continuing]. Osman for 5 minutes for the purposes 
of an opening statement.

                    STATEMENT OF C.J. OSMAN

    Mr. Osman. Chairman Rush, Ranking Member Walden, Ranking 
Member Upton, members of the subcommittee, good morning.
    My name is C.J. Osman, and I am the director of operations, 
safety, and integrity at the Interstate Natural Gas Association 
of American, INGAA.
    Thank you for the opportunity to testify today. INGAA 
appreciates the important work that the subcommittee is 
undertaking and we look forward to working with you on the 
reauthorization bill that enhances pipeline safety in America.
    INGAA's members transport natural gas through a network of 
transmission pipelines that are analogous to the interstate 
highway system. These are large capacity critical 
infrastructure systems that span multiple States or regions to 
bring our Nation's natural gas to market.
    That natural gas is used to heat our homes, to cook our 
food, to power our Nation's industries, and to generate 
electricity. Our industry is relentlessly committed to its 
obligation to the communities we serve to operate safely, 
reliably, and responsibly.
    INGAA asks the subcommittee to consider four key points in 
its deliberations to reauthorize the Pipeline Safety Act. 
First, INGAA strongly supports updating the act to reflect 
modern pipeline safety technologies and engineering practices. 
Many PHMSA regulations are outdated, which can create a barrier 
to implementing 21st century programs.
    Therefore, INGAA supports PHMSA's legislative proposals to 
implement a new technology pilot program and to require timely 
incorporation of consensus technical standards by reference.
    Additionally, Congress should direct PHMSA to complete its 
ongoing rulemaking to update the 50-year-old class location 
change regulations.
    Second, Congress should embrace the recommendations of 
PHMSA's advisory committees when updating the Pipeline Safety 
Act. The Gas Pipeline Advisory Committee provides technical and 
policy input on PHMSA's natural gas rulemakings.
    The advisory committee is comprised of equal representation 
from members of the public, Federal and State agencies, and 
natural gas operators.
    INGAA is concerned that the subcommittee's proposed changes 
to the maximum allowable operating pressure and direct 
assessment requirements contradict PHMSA's pending gas 
transmission safety rules and would overrule years of advisory 
committee discussions.
    For example, while spike testing is an important tool, it 
is an aggressive technique that is not relevant to confirming 
maximal allowable operating pressure. If enacted, the broad 
application of spike testing proposed in the subcommittee's 
discussion draft would risk damaging our Nation's natural gas 
infrastructure and not make it safer.
    Additionally, professional engineer licenses are not 
necessary for all pipeline engineers. Different tasks require 
different knowledge, training, and skills. Instead of 
restrictive licensure requirement, INGAA supports the 
comprehensive management of change requirement in PHMSA's 
pending gas transmission rules. This approach will more 
effectively ensure a competent technical review.
    Furthermore, instead of issuing a self-executing mandate 
directing operators to make more information available to the 
public and to first responders, Congress should leverage the 
expertise of PHMSA and the diversity of the agency's advisory 
committees to evaluate this issue.
    Third, INGAA urges the subcommittee to retain important 
aspects of the PHMSA rulemaking process. Congress should retain 
the cost-benefit analysis requirement in the Pipeline Safety 
Act.
    This requirement ensures that PHMSA evaluates available 
alternatives to identify the best option when developing new 
regulations and it requires a transparent public review of 
PHMSA's analysis.
    No PHMSA regulation has ever been overturned on the basis 
of the cost-benefit analysis requirement demonstrating that the 
act currently provides a clear legally defensible standard.
    Additionally, adding a mandamus provision to allow citizens 
to sue PHMSA would not enhance pipeline safety. PHMSA's best 
position to make decisions regarding how to regulate pipelines 
and Congress and sufficient oversight tools to require the 
agency to meet its statutory obligations.
    INGAA shares the subcommittee's frustration over PHMSA's 
delays in completing new rulemakings. But rather than bypassing 
the rulemaking process through self-executing mandates from 
mandamus, Congress should strengthen PHMSA's rulemaking 
capabilities.
    Therefore, we strongly support solutions such as the 
subcommittee's direct hire proposal.
    Fourth, several of the proposals would make unnecessary or 
harmful changes to the enforcement provisions in the Pipeline 
Safety Act. This would encourage litigation and nondisclosure 
at the expense of collaboration and safety culture.
    There is no need to modify the existing criminal provision 
for operator violations. Federal prosecutors have successfully 
brought criminal cases against pipeline operators where 
appropriate and there is no evidence that the current statutory 
language has created a bar to criminal prosecution.
    Furthermore, PHMSA's civil penalty authority is not 
lacking. The current limits exceed those and many other health, 
safety, and environmental protection statutes.
    In addition to fines, PHMSA issues corrective action orders 
which can produce immediate safety benefits.
    Thank you again for the opportunity to testify. INGAA 
stands ready support a timely reauthorization bill that 
enhances the safety of our Nation's pipeline infrastructure.
    [The prepared statement of Mr. Osman follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Rush. The Chair thanks all of the witnesses for their 
opening statements. We've now concluded opening statements, and 
we will now move toward Member questioning.
    Members will have 5 minutes to ask questions about 
witnesses and I will start this process by recognizing myself 
for 5 minutes.
    Mr. Lesniak, in your testimony you note that currently 
Section 60132 exempts gathering lines from the National 
Pipeline Mapping system, meaning that there is no way to know 
exactly where these lines are actually located.
    Can you discuss with us the main differences between 
transmission lines, which are regulated, and gathering lines, 
which are not?
    Do gathering lines pose a similar public safety risk as 
transmission lines and, if so, does the language in the 
discussion draft help address this issue or is there additional 
language needed to regulate these lines and make them a part of 
the mapping system?
    Mr. Lesniak. Thank you for that question.
    I spent a good part of my career with the city of Austin as 
emergency responder and these gathering lines, many of them, 
are indistinguishable from gas transmission pipelines, and they 
ought to be--at least the location and basic information about 
these lines ought to be available to local governments, local 
emergency responders, and the general public.
    To me, it makes no sense that I can go online using the 
National Pipeline Mapping System and find out where gas 
transmission lines are in my community and emergency responders 
can do the exact same thing so that they can be prepared to 
respond to those kinds of incidents on those pipelines, but a 
gathering line with the exact same type of characteristics that 
information is not available to local emergency responders.
    And so the answer is yes, I think that that's a critical 
piece of the proposed bill and is critical to keeping our 
community safe.
    Mr. Rush. I want to go to the issue of working with issues 
at PHMSA. Specifically, does PHMSA have the sufficient number 
of professional staff with the right expertise to handle all of 
the responsibility that falls under the agency's jurisdiction 
including conducting pipeline inspection and finalizing its 
rulemaking?
    Again, does the discussion draft help address this issue 
and are there other provisions that we should consider adding 
to this bill?
    Mr. Lesniak. You know, in my opinion, I think PHMSA is 
chronically underfunded and understaffed. They compete with the 
industry, with--for expertise and struggle with keeping that 
expertise within the agency as they develop experts.
    And so I think the direct hire provision in the discussion 
draft is very helpful for that. I think that many of the 
stakeholders, industry and pipeline safety advocates, share 
that concern about PHMSA's staffing, and anything that Congress 
can do to facilitate hiring and retention of critical staff for 
PHMSA is a good thing and this bill goes in that direction.
    Mr. Rush. And then, Mr. Lesniak, Section 6 of the 
discussion draft entitled ``Community Right to Know in 
Emergency Preparedness'' is designed to make critical 
operational information available to local communities and to 
first responders.
    Additionally, Mr. Lesniak, Section 6 of H.R. 2139 requires 
the production and maintenance of complete up-to-date records 
of distribution systems and the requirement that these records 
be available to the relevant regulators.
    While these provisions would strengthen the engagement of 
pipeline operators with local emergency planning committees and 
local first responders while also providing the public with 
frequently requested information, why are these so critical to 
both safety reasons and building the public trust?
    Mr. Lesniak. And, again, as based on my career as a first 
responder, you know, I was surprised when I got involved in 
pipeline issues how difficult it was to get really critical 
technical information about pipelines in our community.
    It really is dependent on the operator of that pipeline and 
you have got operators that are much more open about sharing 
technical information about their pipelines and you have got 
operators that just refuse to provide essentially any 
information at all that they're not required to provide by 
statute.
    And so anything that Congress can do to level that playing 
field so that local first responders can get that information 
about the pipelines in their communities is critical because of 
the things that I found, working with the Austin, Texas, fire 
department is they know very little about the pipelines in 
their community.
    The pipeline operators historically in our community 
provide just the very basic awareness of information and if an 
incident were to happen in our community I think that our first 
responders would be woefully unprepared and that information 
ought to be provided to them on a routine basis.
    Mr. Rush. Thank you.
    The Chair now recognizes the ranking member, Mr. Upton, for 
5 minutes.
    Mr. Upton. Thank you, Mr. Chairman, and I do have a lot of 
questions and I am going to try to keep my questions brief and, 
hopefully, your answers will be brief so I can go through them.
    But I am going to formally draft these up as a letter to 
each of you for you to formally respond and if you can do that 
as quickly as you can, knowing that we are on somewhat of a 
timetable here that would be good.
    Mr. Osman, you made a good point in your testimony about 
the draft legislation's removal of the cost-benefit analysis 
and inclusion of mandamus civil suits speeding up the pace of 
PHMSA's rulemaking.
    I appreciate that. Does--in your opinion, does the draft 
legislation encourage collaboration among pipeline safety 
stakeholders and advisory committees during consideration of 
any new regulations?
    Mr. Osman. No, not as much as it could.
    Mr. Upton. And Ms. Sames--Ms. Sames, does the draft 
legislation preserve effective State pipeline replacement and 
upgrade programs?
    I say that because we replaced a pipeline a number of years 
ago in Michigan, which as a good thing, and the old pipeline 
was left in place. But how does this draft legislation impact 
something like that?
    Ms. Sames. It doesn't address it.
    Mr. Upton. Mr. Black, does the draft legislation authorize 
PHMSA to allow operators to incorporate new safety technologies 
or best practices that may not be addressed in the regulations?
    Mr. Black. No.
    Mr. Upton. And does the draft legislation address the 
safety of inactive pipelines at all or not?
    Mr. Black. No.
    Mr. Upton. Does the draft legislation incentivize the 
timely updating of regs to incorporate the latest industry 
standards?
    Mr. Black. No, and we wish it would.
    Mr. Upton. And can you provide us maybe with some 
constructive language? And does the draft legislation 
discourage folks from attacking pipeline facilities, something 
I think a lot of us are concerned about?
    Mr. Black. No, and we wish it would.
    Mr. Upton. And what does the draft do on cybersecurity?
    Mr. Black. It doesn't have any provisions on cybersecurity.
    Mr. Upton. Does the draft legislation preserve and support 
the years of ongoing work to update both gas and liquid 
pipeline regulations?
    Mr. Black. Not directly, no.
    Mr. Upton. Mr. Osman, do you have a comment on that, too?
    Mr. Osman. No, it contradicts it and undoes it.
    Mr. Upton. So what does it do to encourage pipeline 
operators to share information about the lessons learned? I 
mean, that's one of the things that prompted us years ago to 
look at pipeline accidents--what happened.
    I've had some pipelines break not too far from my district, 
but and some also--we had a gas pipeline that broke in my 
district and, you know, careful effort was made to test 
forensically in fact what exactly happened so that improvements 
could be made so that we wouldn't have an issue later on in any 
community.
    This particular incident in my home county was--thank 
goodness it was in a potato farm so there was nobody around. 
But they were able to get the evidence from that break and be 
able to make some recommendations.
    But, to me, that's something that ought to be shared from 
experiences that were made or from happenings that occurred.
    Mr. Osman. If the subcommittee were to authorize a 
voluntary information sharing program it would encourage 
discussion of incident lessons, and if the subcommittee moves 
forward with our criminal reckless standard it discourages that 
open sharing across companies.
    Mr. Upton. Yes. Does the draft legislation incentivize 
operators to adopt best practices or exceed minimal Federal 
safety standards?
    Mr. Osman. No, and we would encourage the administration 
provision that calls for timely incorporation for reference.
    Mr. Upton. Have any of you looked at--I believe PHMSA 
actually had a proposal that we've not looked at formally--
we've not had it and they're not here to testify today.
    Mr. Osman. Yes. We support the proposal administration bill 
calling for regular timely incorporation into regulations of 
best practices.
    Mr. Upton. So one of my questions will be that I provide in 
writing is could each of you and your organizations take a look 
at that PHMSA proposal and make recommendations as this is a 
good thing, this is a bad thing, this is how you might alter 
that? Is that OK?
    Mr. Osman. Yes.
    Mr. Upton. Mr. Lesniak, is that OK?
    Mr. Lesniak. Yes, we'd be happy to do so.
    Mr. Upton. Great. Well, I look forward to working with all 
of you. This is a really important issue. We have millions of 
miles of pipelines and we can always do better, and we need to 
learn from those mistakes and work together in a way to ensure 
that the operators and our communities in fact are safe.
    And with that, Mr. Chairman, I yield back and look forward 
to working with you as this issue moves forward. Thank you.
    Mr. Rush. The Chair now recognizes Mr. Doyle for 5 minutes.
    Mr. Doyle. Thank you, Mr. Chairman, and welcome to our 
panellists today.
    I appreciate the opportunity to consider legislation 
related to pipeline safety. Pennsylvania is in the midst of a 
natural gas boom which is a tremendous resource but only if 
it's developed in a way that protects human health and the 
environment.
    In Pennsylvania, fracking is often very close to or within 
communities and pipelines run through neighborhoods and high-
density areas. So I take this issue very seriously and I look 
forward to examining the ways to strengthen current regulations 
and protections.
    The natural gas industry has grown rapidly in Pennsylvania 
in recent years while PHMSA funding for States have not kept 
pace.
    Ms. Sames, Mr. Lesniak, or Mr. Black, do you believe that 
the States have sufficient resources to support enforcement in 
oversight of pipelines under their jurisdiction such as 
intrastate pipelines and the siting of hazardous liquid 
pipelines? And maybe you could just do down, very quickly, and 
answer that.
    Ms. Sames. AGA has always been supportive of more resources 
for the States.
    Mr. Lesniak. Yes. Pipeline Safety Trust agrees that the 
States are underfunded.
    Mr. Black. States should have the resources they need.
    Mr. Doyle. So, Mr. Lesniak, you mention in your testimony 
the importance of additional funding for States to close the 
gap between the amount that PHMSA is allowed to fund State 
pipeline safety programs and the amount that they actually do. 
Can you elaborate on that?
    Mr. Lesniak. We've got more in our written testimony and we 
can--be happy to get you more written--more detailed 
information on that.
    I do think it's a critical issue, especially in States like 
Pennsylvania and Texas, other States that have seen rapid 
growth in oil and gas exploration and production and we are 
seeing a huge boom in pipeline construction and it's clearly 
outpaced the abilities of States to keep up with it.
    Mr. Doyle. Pennsylvania's natural gas infrastructure dates 
back to the 19th century. So aging infrastructure is a concern 
for our region also.
    Ms. Sames, in your testimony you described the progress 
that's been made in replacing cast iron pipe with plastic 
piping for distribution, main, and service lines. How are your 
members prioritizing the location for service upgrades and does 
this consider aspects such as terrain and the risk of mine 
subsidence as is the case in a lot of southwestern 
Pennsylvania?
    Ms. Sames. It covers all of that. So when you're doing 
replacement programs you're looking at a number of factors. 
You're looking at the materials, the age, the construction 
techniques, the environment that the pipeline is in, the 
environment around the pipeline and what you're learning 
through leak surveys.
    So for things like cast iron, you want to replace the 
smaller lines first because those historically are the ones 
that are more fragile to breaking. Where you're getting larger 
pipelines that you have had absolutely no issues, maybe you 
prioritize those a little bit later because they seem to be 
functioning really well.
    But ground movement is something that will cause an 
additional risk on cast iron. So you want to get rid of cast 
iron where there are--where there are ground movements like 
coal subsidence.
    So yes, it's all taken into account.
    Mr. Doyle. Thank you. I co-sponsored legislation with my 
colleague, Mr. Olson, to address the shortage of qualified 
staff at FERC.
    So I am glad to see language included in the Pallone bill 
to address the similar staffing issue at PHMSA. Can anyone 
please speak to the staffing needs at PHMSA and do you think 
that PHMSA would be able to adequately address this issue 
without additional authority and funding? Maybe, Mr. Lesniak, 
what do you think?
    Mr. Lesniak. We can certainly provide you more information 
on that. But as, I think, we've all mentioned, PHMSA is 
chronically understaffed and they have--they struggle with 
targeting priority areas.
    Mr. Doyle. Let me ask you also, what are your views on the 
process of siting hazardous pipelines? Do you think PHMSA 
should have a role in this process?
    Mr. Lesniak. Absolutely they should have a role. Safety is 
not addressed during the siting process. The agencies will tell 
you that are involved in siting that it's not referenced in the 
regulations and that PHMSA today voluntarily participates in 
the siting process for many pipelines. But I think it should be 
clearly addressed in the statute so that it's a clear 
responsibility for PHMSA.
    Mr. Doyle. What about you, Mr. Black? What do you think?
    Mr. Black. PHMSA has a comprehensive series of construction 
codes that affect pipeline regulation--pipeline construction, 
excuse me.
    They're there watching pipeline construction. Any pipeline 
that is going to go into service must pass a hydrostatic 
pressure test before it begins operation and PHMSA always has 
the authority to shut a pipeline down if it believes it's safe.
    We believe there's no gap here. PHMSA has a clear role in 
safe operations of pipelines including construction.
    Mr. Doyle. I see my time is up, Mr. Chairman. Thank you. I 
yield back.
    Mr. Rush. Mr. Walden, the ranking member, is recognized for 
5 minutes.
    Mr. Walden. Good morning, Mr. Chairman.
    Mr. Rush. Good morning.
    Mr. Walden. Thanks for having this hearing. Thanks to our 
witnesses for your testimony, which informs our work.
    I have to confess I am a little disappointed we are moving 
ahead with a legislative hearing when we don't have PHMSA here 
today. I think we will benefit from their response to our QFRs 
from the prior hearing and when they can actually be here.
    And so I hope we are not going to rush into a markup 
without thoroughly vetting to making significant improvements 
to this draft and I think you all have weighed in in areas you 
think it can be improved upon.
    And so we want to get this right. We believe in pipeline 
safety and it needs to be a bipartisan effort as it always has 
been. So I want to focus on a couple of things the draft 
legislation deals with. And so to each of you I've got a couple 
of questions.
    What are we doing to encourage pipeline operators to 
continue innovating and incorporating the most cost--the most 
cutting-edge technologies and best practices? Are our 
regulations keeping pace?
    A pretty broad question, but Mr. Black?
    Mr. Black. I will take it. The regulations are not keeping 
pace with innovation. PHMSA is slow. We've encouraged the 
committee to authorize a pilot program modelled after that they 
have for motor carrier.
    The administration supported this. This would let them road 
test new technologies and approaches and update their 
regulations more frequently. It's very important.
    Mr. Walden. Do each of you agree with that statement?
    Ms. Sames. I definitely agree. The process now, when new 
technology comes out, there's typically a pretty long delay 
where it has to be pilot tested. States need to weigh in. It 
all hampers technology enhancements quickly.
    So anything that can be done to advance that. I think the 
administration bill does have information on a pilot on new 
technology. I know I am supportive of it. We want to get 
technology out faster.
    Mr. Walden. All right.
    Mr. Lesniak?
    Mr. Lesniak. We do have some questions about a potential 
pilot program. We are in favor of bringing in technology that 
makes pipelines safer. But if we are going to put stuff in the 
ground, we want to make sure that it's safe before it gets put 
in the ground.
    Mr. Walden. Yes. Sure.
    Mr. Osman?
    Mr. Osman. Absolutely. You know, we agree with PHMSA's 
proposal for the pilot program. I think we need Congress' help 
to fill in a gap in the process right now to test those 
technologies that look like they're ready, but we don't know 
for sure----
    Mr. Walden. Right.
    Mr. Osman [continuing]. Until we can implement them in the 
real world. So we are very supportive of that particular----
    Mr. Walden. For everybody's benefit.
    I also believe we should consider the voluntary program to 
promote sharing of information and lessons learned across the 
industry, and I know some of you have referenced that.
    Do you all agree that that's a good way to go here on 
lessons learned, a voluntary program?
    Ms. Sames. AGA definitely does. We do a lot of sharing 
behind the scenes among operators. We want to be able to share 
more with the regulators, but we need a safe harbor in order to 
do that. We see most of it in some of the provisions. It's 
still lacking in a few areas.
    Mr. Walden. OK.
    Mr. Lesniak?
    Mr. Lesniak. We do think that the VIS program has 
potential. We want to make sure that it's not a substitute for 
withholding specific information about specific pipelines and 
incidents.
    Mr. Walden. Got it.
    Mr. Black?
    Mr. Black. Months have been spent on this--on it with a 
group convened by PHMSA of a broad collection of stakeholders. 
They've come up with a report from that committee on a proposal 
for Congress on a way to get operators to participate in that. 
We urge the committee to adopt that.
    Mr. Walden. All right.
    Mr. Osman?
    Mr. Osman. I will just disagree with one point that Mr. 
Black made. That committee has worked for years----
    Mr. Black. Yes.
    Mr. Walden. Oh, not once. Got it.
    Mr. Osman [continuing]. To recommendations for how to do 
this the right way. So----
    Mr. Walden. Yes. So you think we ought to get on with it? 
Is that what you're saying?
    Mr. Osman. Yes. Both the need--we need the work from 
Congress. We need the protections in the statute to make that.
    Mr. Walden. Got it. All right.
    Let me ask you about cybersecurity. There are, obviously, 
threats to the pipeline system as there are to the electric 
grid, as there are to you name it. There are hackers out there.
    What tools do you need from us when it comes to 
cybersecurity that are lacking in this bill that you can talk 
about here?
    Ms. Sames. Do you want to go first?
    Mr. Black. We take cybersecurity very seriously. I think 
Congress has acted on this in the FAA reauthorization last year 
to elevate the role of cyber within TSA, bring more resources 
there.
    We encourage Congress to appropriate more funds for TSA to 
do its work on cyber. Attention on this issue from government 
agencies and Congress can only help.
    Mr. Walden. Yes. I am not--I am not--I don't know about the 
ranking member, Mr. Upton, but TSA has been less than 
cooperative with this committee as we delve into these issues 
and, you know, I am not overly impressed.
    So I don't know that they're going to get more money. Mr. 
Upton, I don't know if you want to weigh in here.
    Mr. Upton. They're going to be checking you at the Pre-
Check.
    Mr. Walden. I know. I know. I know.
    Mr. Upton. I've been randomly selected, like, the last 5 
weeks in a row.
    Mr. Walden. Yes, that's right. That's right.
    [Laughter.]
    Mr. Upton. Just have a smile on your face.
    Mr. Walden. That's right. My time has expired on that note 
and--yes. Thank you all for what you're doing. We want to get 
this right.
    Thank you, Mr. Chairman, for the hearing.
    Mr. Rush. The Chair now recognizes Mr. McNerney for 5 
minutes.
    Mr. McNerney. From the great State of California. You 
forgot.
    [Laughter.]
    Mr. Rush. From the great State of southern California?
    Mr. McNerney. Northern Cal. Oh my gosh.
    Mr. Rush. Northern California.
    Mr. McNerney. Thank you, Mr. Chairman.
    Mr. Lesniak, you referenced the 2010 San Bruno explosion 
that killed eight people. It took over an hour for crews to 
shut off the gas line after that explosion. You pointed out 
that 19 years ago Congress first started debating automatic 
spill detection and shut off valves, both which would have 
assisted in that process.
    Can you speak to the importance of leak and rupture 
detection and the automatic or remote control shut off valves?
    Mr. Lesniak. Yes. Thank you for that question.
    I think it's critical. Most new pipelines have both 
automatic and remote controlled valves in them. We ought to be 
retrofitting all pipelines with those.
    There may be very specific unique instances where it's not 
appropriate. But I think that those are very rare and that I 
think this ought to be standard of practice.
    It's commonly used in the industry. It ought to be--it 
ought to be included in the statute.
    Mr. McNerney. Well, the ranking member mentioned his 
concern about automatic shut off valves and so did one of the 
witnesses in liquid pipelines. Is that an issue?
    Mr. Lesniak. If a valve is improperly closed, it can cause 
problems, can cause a release on a pipeline. Absolutely.
    But automatic valves are used routinely in the industry. So 
they've, apparently, addressed that problem.
    Mr. McNerney. Thank you.
    Mr. Osman, a major component of the bills that we discussed 
was the technology. What additional technologies do you view as 
being essential to modernizing pipeline safety?
    Mr. Osman. Thank you for the question.
    We have tremendous amount of opportunities today that we 
didn't have even 5, 10, 15 years ago to enhance the safety of 
our pipeline system with today's technologies.
    In particular, the ones you will hear us talking about the 
most is the new internal inspection devices and new methods of 
analyzing the data that those devices produce. These are tools 
that are based on the same technology as an ultrasound machine 
or an MRI at the doctor's office and they can detect problems 
inside the pipeline years before that problem actually results 
in the pipeline.
    Mr. McNerney. That's amazing.
    Mr. Osman. It is amazing.
    Mr. McNerney. What's one of the barriers to adopting that?
    Mr. Osman. First, PHMSA needs to complete the pending 
rulemaking that they've been working on in which everyone at 
this table is supportive of.
    But going forward, beyond that, as we've talked about, we 
need opportunities to pilot these technologies moving forward 
so it does not take so many years to update the regulation, and 
one of the--one of the barriers to updating those regulations 
is not having that field-tested data and that pilot program 
that PHMSA proposed would help us go a long way.
    Mr. McNerney. But we heard a lot about complaining about 
how PHMSA is so slow in their rule making. What, besides 
additional resources, would help in that process?
    Briefly, for all the panellist, starting with Ms. Sames.
    Ms. Sames. I would love to see a process that is done with 
in DOT to move things faster. What I am seeing is that the 
technical folks within PHMSA do a really good job with moving 
things quickly once the advisory committees have finished their 
deliberations.
    But there seems to be a delay from PHMSA to the Office of 
Management and Budget. I don't know where the delay is 
occurring. But, to me, that's an area that could be 
investigated.
    Mr. McNerney. Thank you.
    Mr. Lesniak. Yes, I would agree. PHMSA is doing their work. 
Often it seems to be--get caught in the secretary's office or 
in OMB and, as we mentioned earlier, we think this duplicative 
cost-benefit analysis that's required in the current statute 
also slows things down.
    Mr. McNerney. Thank you.
    Mr. Black?
    Mr. Black. I think a legislative analogy, rifle shot bills 
are often easier to move than Christmas tree bills or omnibus. 
We believe that PHMSA made strategic mistakes on gas and liquid 
regulations in the last Congress to lump a bunch of many 
complex diverse issues into large mega rules that just 
overwhelm the development process and the review process, and 
that's the primary reason that we are waiting for them today.
    Mr. McNerney. OK. Thank you.
    Mr. Osman?
    Mr. Osman. PHMSA has two advisory committees with 30 people 
on them total, have a tremendous diversity of background and 
extent of experience in the pipeline industry, in the public 
space, in the regulator space.
    PHMSA should use those advisory committees earlier on to 
take input into development of rulemakings to make the 
rulemakings stronger from the get-got. So less of that work 
needs to be done at the back end when the advisory committees 
see the rulemaking proposal.
    Mr. McNerney. Thank you.
    Mr. Lesniak, you indicated that there are 435 miles of 
unregulated pipeline. What are the barriers to regulating those 
pipelines?
    Mr. Lesniak. Thank you. It's 435,000 miles of pipelines.
    Mr. McNerney. What did I say?
    Mr. Lesniak. The barriers is that it's not provided for in 
statute at all.
    Mr. McNerney. Right. All right.
    Mr. Chairman, I will yield back. Thank you for your 
responses.
    Mr. Rush. The Chair now recognizes Mr. Latta for 5 minutes.
    Mr. Latta. Well, thanks very much, Mr. Chairman, and thank 
you very much for holding today's hearing and I would also like 
to begin by just echoing the ranking member of the full 
committee and also the subcommittee's disappointment the 
majority took a partisan approach to a historically bipartisan 
topic by drafting this legislation for us in a vacuum.
    My hope is that because it is a discussion draft that the 
majority intends to work with us to move a bipartisan package 
forward that I am very interested in working with my 
colleagues, especially on using the best practices in 
technology to find the solutions leading to increased safety.
    Mr. Black, if I could begin with you. In your written 
testimony you proposed a pilot program for a new pipeline 
safety technologies and best practices.
    PHMSA also submitted a proposal for a pipeline safety pilot 
program to give them some regulatory flexibility to allow new 
technology and safety methods.
    What's the problem you're trying to solve with this pilot 
program and is this a situation where the regulations haven't 
kept pace with the innovation out there?
    Mr. Black. The integrity management regulations for liquid 
pipelines are about 20 years old now and they have not kept 
pace. They have gaps, including cracking in pipelines. PHMSA 
has been slow, despite their efforts.
    A pilot program that motor carrier has that the 
administration has now proposed would let PHMSA test on 
operators of their choosing methods, approaches, technologies 
that they believe would have an equivalent level of safety and 
gather data.
    We believe that data, when they gather it on operators they 
choose, would help inform their regulations and speed up their 
rule making process so then they could apply those lessons to 
all in industry.
    We are supportive of the proposal. We think there should be 
a few more provisions requiring reporting to Congress about the 
lessons from pilot programs and a trigger that requires them to 
then take those lessons that are positive and incorporate them 
in regulations.
    Mr. Latta. Let me follow up, because you said that you're 
looking at something that's 20 years old, and two things. One, 
why is it taking PHMSA this long to catch up with something 
that's over 20 years?
    And at the same time, would you describe some of the cost 
cut--or the cutting-edge technologies and best practices that 
your member companies would like to implement?
    Mr. Black. Well, the technology is growing leaps and bounds 
in terms of pipeline inspection. Not just the tools that can 
run through a pipeline but then also the analytics that can 
happen once the inline inspection device we call a smart pig 
comes out of the pike.
    So we are learning more. The regulations are old. There's a 
floor. Pipeline operators are going well above them because of 
your best practices that we incorporate and we suggest PHMSA 
often incorporate in the regulation.
    They can update these. I spoke a moment ago about my 
personal thought and our organization's thought about the delay 
by PHMSA. It's taking too many issues and putting them in the 
large rule making processes that are just slowing down.
    It shouldn't be 20 years. Hopefully, it won't be 20 years 
again.
    Mr. Latta. Well, let me ask, does the draft legislation 
that's before us include anything like this encourage the 
operators to adopt these new technologies on a voluntary basis?
    Mr. Black. In the administration draft, yes. In the 
discussion draft from the subcommittee, no.
    Mr. Latta. OK. Thank you very much.
    To Ms. Sames and Mr. Osman and Mr. Black, if I could kind 
of ask some quick questions here.
    As you know, the States are overseeing more than 80 percent 
of the Nation's pipeline infrastructure, especially the gas 
distribution pipelines that connect our homes and businesses to 
the main transmission system.
    Could you talk a little bit about the State programs and 
the relationship your member companies have with the States and 
the local pipeline safety regulators?
    Ms. Sames?
    Ms. Sames. Yes. So if you--at the State level, especially 
if you're a larger operator, you're probably having multiple 
State inspectors in your office every day. They're in the 
field.
    They're with the operator. They're looking at various 
things, which is why the State program is so important and why 
AGA has always been supportive of additional funding for the 
States.
    They're the ones regulating and if--they need the proper 
training, the proper resources to do that. Unlike the PHMSA 
regulations, the PHMSA regulators, the auditors--I think the 
interstates and the liquid industry see them a little less 
often than they do than we see the State operators at the State 
level.
    PHMSA has a responsibility to provide oversights of the 
States, the State inspectors. They're relying on the State 
regulators to go out and do their job, which also gets back to 
why PHMSA needs additional resources.
    Mr. Latta. OK. And I know, Mr. Chairman, my time is 
expiring, but I will submit my questions in writing to the 
witnesses.
    Thank you very much. I yield back.
    Mr. Rush. The Chair now recognizes the chairman of the full 
committee, Mr. Pallone, for 5 minutes.
    Mr. Pallone. Thank you, Chairman Rush.
    In his testimony, Mr. Black of the oil pipeline industry 
states that, and I quote, ``Applying an ambiguous legal 
standard of recklessness will not advance pipeline safety.''
    Mr. Black would also have you believe, in my opinion, that 
requiring a prosecutor to prove that someone is both knowing 
and willful is standard whereas in reality most statutes 
require proof that someone is either knowing or willful so 
rather than and/or.
    So I wanted to ask Mr. Lesniak, is reckless and ambiguous 
legal standard or is there a precedent in statute for holding 
someone accountable for reckless behavior?
    Mr. Lesniak. Thank you. It's far from ambiguous or unusual. 
It's commonly used in other Federal statute, and in fact in 
most States it's included in the motor vehicle code and other 
criminal statutes.
    Mr. Pallone. And then doesn't the current hazardous 
material safety statute contain criminal penalties of someone 
who willfully or recklessly violates a requirement of the 
Federal Hazardous Material Transportation law?
    Mr. Lesniak. Yes. In fact it does.
    Mr. Pallone. So I think this is neither novel nor ambiguous 
and, in my view, it will certainly improve accountability and 
safety.
    Mr. Lesniak, let me ask you another question. What do you 
think has been the hold up on the mandates from the 2011 and 
2016 acts? Do you think that this is due to the duplicative and 
prescript or cost-benefit required in current law?
    Mr. Lesniak. Yes, it does. Yes, I think it is a big part of 
it. It's not the only reason but it is one of the key reasons 
and we need to get that addressed.
    Mr. Pallone. I mean, I think the statutory cost-benefit 
analysis, clearly, ties the secretary's hands. So my question 
is would eliminating it help prevent the extreme delays we have 
seen from occurring again?
    Mr. Lesniak. Yes, we think it would.
    Mr. Pallone. All right. Thank you.
    Let me go to Mr. Lesniak again about this mandamus issue. 
In the aftermath of the San Bruno incident, the city of San 
Francisco was blocked, quote, ``from forcing PHMSA to uphold 
its statutory responsibilities'' and this happened because the 
court held that the law did not allow for mandamus type citizen 
suits to be brought against the Federal Government.
    So, Mr. Lesniak, do we need the ability for citizens, 
States, and local governments to be able to compel PHMSA to do 
its job?
    Mr. Lesniak. I think there's no question. You know, if you 
think the delays that we are seeing, the Congress gets 
frustrated with these delays, with implementing the 
regulations, how do you think a community like San Francisco, 
San Bruno, Edison, Bellingham feel when they have incidents and 
or they have pipelines in their communities that they have 
concerns about and they can't get PHMSA to act?
    Congress can hold these agencies accountable but it may 
take years, if at all, and the public needs to have the ability 
to go to court to get these agencies to implement these 
regulations. Congress is a representative of the people. The 
people ought to have the ability to enforce the laws Congress 
passes.
    Mr. Pallone. Thank you.
    I wanted to ask you, you know, the industry--from their 
testimony the Interstate Natural Gas Associations seems, in my 
opinion--I mean, I am putting words in their mouth but from 
what I can see from their testimony is perfectly fine--they're 
perfectly fine with the status quo of rule makings that take a 
decade or more.
    They seem to suggest we don't need to use modern technology 
like automatic or remote valves or smart pigs and that we 
shouldn't review the integrity of pipelines that are half a 
century old or older.
    According to the testimony, a rule making process that 
never ends seems to be fine and anything Congress might do to 
ensure faster results or improve pipeline safety and hold 
operators more accountable, and I quote, would overrule years 
of work in developing new pipeline safety regulations for gas 
transmission pipelines.
    But, of course, what good--I mean, in my opinion, what good 
does it do the public to have a rulemaking process that goes on 
and on and never produces a rule? I mean, that's my problem.
    So let me ask you, do you think that the industry's 
opposition to new safety requirements is contributing to the 
growing opposition of landowners to having a pipeline run 
through their States, towns, and back yards? Because this is 
what I hear all the time.
    Is that--is this opposition to these new safety 
requirements contributing to that?
    Mr. Lesniak. I think it is. I think that the industry does 
throw comments and engage in the rulemaking process sometimes 
in a way that's counterproductive and slows down the process, 
and for some in the industry I think it works in their favor--
that they would prefer to preserve the status quo.
    Mr. Pallone. But then at the same time you have this 
growing opposition from the landowners, and I think, you know, 
this only contributes to that. So I don't know that it's in 
their interest, but whatever.
    Thank you. Thanks so much.
    Mr. Rush. The Chair now recognizes the gentleman from 
Texas, Mr. Olson.
    Mr. Olson. I thank the Chair, and welcome to our four 
expert witnesses.
    My first question is a simple yes or no. Are pipelines 
safer than trucks, trains, ships for transporting liquid and 
gas products?
    Ms. Sames, yes or no?
    Ms. Sames. Yes, based on DOT's statistics.
    Mr. Olson. Mr. Lesniak, yes or no? Pipelines safer?
    Mr. Lesniak. Yes, but it's an apples and oranges 
comparison.
    Mr. Olson. Mr. Black?
    Mr. Black. Yes.
    Mr. Osman. Yes.
    Mr. Black. Mr. Osman agrees. So we all agree that pipelines 
are as close as we get to perfection transporting products--
liquid products--right now with what we have in our world.
    Another simple yes or no question for all of you. As Mr. 
Doyle mentioned, we have a bill that allows FERC to exceed the 
Federal pay limits for the expert employees that are getting 
taken by the private sector basically because they don't have 
the money to pay them.
    Would you all support--your organizations--something like 
that for PHMSA? Because we've heard over and over manpower is a 
problem. How about allowing PHMSA to pay more than the Federal 
minimum?
    Ms. Sames?
    Ms. Sames. Yes. Yes.
    Mr. Lesniak. Yes.
    Mr. Black. We support the Federal Government for PHMSA 
inspectors being able to pay more to attract and retain 
inspectors.
    Mr. Olson. Mr. Osman?
    Mr. Osman. Yes.
    Mr. Olson. There we go. OK.
    Let's talk about PHMSA. Right now, they're in the middle of 
a careful effort to set new rules for gathering lines. Moving 
to the suburbs of Houston, Texas, the energy capital of the 
world, I know how important these lines are to production of 
mostly oil and natural gas.
    They're important for the safety they provide and also the 
ability to expand the system, and while gathering lines may 
look like other pipelines, they're very, very different because 
they have very low pressures compared to pipelines that 
transport the product from Texas up there to New England.
    And it would seem to me that our draft legislation is 
abetting PHMSA's work with their efforts for new rules for 
gathering lines.
    And this is for you, Mr. Black, and you, Mr. Osman. Can you 
talk about how these lines are regulated today and what PHMSA 
is doing--we think they're going when they update these 
regulations and what are the costs of Congress stepping in and 
expanding PHMSA's jurisdiction while they're still trying to 
get a handle on new rules?
    Mr. Osman. Thank you for the question.
    Of course we agree that it's important that all pipelines 
are safe. Our members, INGAA, represent the interstate and 
natural gas transmission pipelines. We don't represent 
gathering pipelines so I can't get into the specifics there.
    I will say from a process perspective PHMSA's advisory 
committee is meeting next week to try to advance that gathering 
rule making forward and if recent history is any indication, 
they're going to be successful in doing so.
    Mr. Olson. Mr. Black?
    Mr. Black. This new effort has been about gas gathering. 
Liquids often is already regulated by PHMSA above certain--
below certain--above certain diameters and thresholds.
    It's been primarily a gas-gathering push.
    Mr. Olson. My final question is for you, Ms. Sames and Mr. 
Black and Mr. Osman one more time. I've heard over and over 
today in this hearing and out back home about how long it takes 
PHMSA to set new rules to--for these pipeline systems and 
that's why I have concern we are going to actually slow that 
process down with these new writs of mandamus.
    This new law will encourage more lawsuits from special 
interest groups with no standing and also leave the back door 
rules settled through sue and settle and going through a back 
door is never safe as opposed to going through a front door.
    So my question for all of you all is do you think this 
discussion draft's mandamus provision would impact the quality 
and pace of PHMSA's rule makings? Would it hurt it?
    Ms. Sames. Yes.
    Mr. Black. Yes. If we think PHMSA is overwhelmed by 
congressional mandates, think about how they'd be overwhelmed 
with litigation from groups that can choose what to sue on.
    We think court-forced action would usurp the role of 
Congress and setting priorities would divert them from whatever 
they think their highest priority is and it would create the 
risk of sue and settle rulemaking outside of the process where 
all stakeholders have an opportunity to participate. I think it 
hurts.
    Mr. Olson. Mr. Osman?
    Mr. Osman. I agree with my colleagues. We are all 
frustrated about the pace of rule makings and we are not happy 
with the status quo. But we do not think the mandamus provision 
is going to speed things up.
    We think we need more focussed decision making from the 
agency and we need to do what we can to help them get the 
resources that they need to move these important rule makings 
forward.
    Mr. Olson. Thank you. I am out of time.
    Mr. Lesniak, one compliment for you being from Austin, 
Texas. The bowl game we had with the Longhorns against the 
Georgia Bulldogs. Bevo, our Longhorn mascot, tore into that 
little bulldog. So, thank you. Made Texas proud.
    Mr. Lesniak. Hook 'em.
    [Laughter.]
    Mr. Olson. There you go. Hook 'em. Yield back.
    Mr. Rush. The Chair now recognizes Mr. Loebsack for 5 
minutes.
    Mr. Loebsack. Thank you, Chairman Rush, Ranking Member 
Upton, and thank you to the witnesses for being here today as 
well. I am pleased that the committee is holding this hearing 
on this incredibly important issue--pipeline safety in America.
    And before I go any further I should mention too that I 
think that what we are talking about today while we are talking 
a lot of about regulation and all the rest, I think it also 
points up how important a new infrastructure bill would be 
because we have such an aging system of pipelines out there.
    We are going to have to make replacements. We are going to 
have to make repairs. We are going to have to do all these 
things to make sure that we can continue to transport the 
energy that gets transported.
    That's got to be a part of a larger infrastructure bill, I 
believe, and I think that's actually something maybe we can all 
agree on on a bipartisan basis here as well.
    I don't want to make too many assumptions, however, about 
the nature of politics in this body at the moment. But I do 
think we can agree on that.
    Our Nation's pipeline system does help deliver reliable and 
low-cost energy to consumers across the country. Ensuring that 
our pipelines operate safely, reliably, and efficiently is 
absolutely critical. I think that's a no-brainer.
    We must also ensure that we are taking proactive measures 
to protect our pipelines from both physical and cyber threats--
that's been mentioned, cyber threats--that would put our 
Nation's energy supply at great risk--those threats out there.
    We know that cyber attacks are a near constant and 
increasingly dangerous threat to our energy infrastructure as 
well as to the surrounding communities. Federal pipeline safety 
regulations must keep pace with the capabilities of those who 
seek to attack our energy supply and undermine our national 
security, and to that end I am happy I've been working with 
Ranking Member Upton on the piece of legislation that would 
improve the coordination and information sharing among the 
Federal entities tasked with overseeing the cybersecurity of 
our Nation's pipeline system, the Pipeline and LNG Facilities 
Cybersecurity Preparedness Act.
    I look forward to continuing to work on this important 
issue as this committee moves forward on comprehensive pipeline 
safety legislation.
    Concerning the legislation that's before us today, the 
Safer Pipelines Act does include a provision that I think is 
critically important in ensuring our communities are better 
protected from the potential impacts of a pipeline incident.
    This provision would require that the owners or operators 
of a gas or hazardous liquid pipeline engage and share 
information, and it's been mentioned with local emergency 
planning committees and other local first responders.
    This will ensure that those individuals who are first to 
the scene in the event of an accident are able to respond as 
effectively as possible to protect the surrounding community.
    Those first responders, we all know, are absolutely 
critical. We've had a lot of floods in Iowa over the past 10 
years since I've been in office--10 or 12 years. This kind of 
an incident would be absolutely--it would be absolutely 
essential for those first responders to have as much 
information as possible as well.
    And I know we talked about this already a little bit, Mr. 
Lesniak. In your testimony you highlighted this effort to 
engage with the emergency planning committees and first 
responders and improve communication and education efforts 
within the communities.
    Can you elaborate again, if you would, on how you think 
information sharing with State and local emergency responders 
can help ensure the safety of our communities and improve 
outcomes in the event of an incident?
    Just elaborate on what you have already been talking about 
earlier, if you would.
    Mr. Lesniak. Thank you.
    You know, local emergency responders have a hard time 
getting information about pipelines and, as I said, it's a 
voluntary process. Some operators are really good about it. 
Some operators are not very good about it.
    But it's the local emergency responders that have to be 
able to act quickly to protect their communities.
    And so anything that Congress can do to make sure that 
critical information is shared with local LEPCs, local fire 
departments, and other first responders I think is critical.
    Mr. Loebsack. So in terms of what these local communities 
can do themselves to take steps to protect themselves from the 
impacts of an incident, do you have any specific ideas about 
that?
    Mr. Lesniak. I do. I worked with--personally worked with a 
local pipeline operator to develop an emergency spill response 
plan for Austin, Texas to protect Barton Springs, one of our 
critical natural resources there, and they worked well with us 
and that process worked really well.
    Other communities could do that. Other pipeline operators 
that we reached out to in our community weren't interested in 
working with us.
    And I just might say--you know, I am near the end here--I 
do worry about not just cybersecurity attacks but I worry about 
physical attacks and I go on the mapping website that you 
mentioned earlier. There's a lot of information that the public 
does need.
    But that information is available to the bad guys, too, and 
we have to be thinking about how to balance, you know, those 
kinds of interests that we have as a public but also making 
sure that we secure these pipelines from the bad guys who want 
to do terrible damage to us and can inflict terroristic kinds 
of actions on us and we have to be careful on that front.
    So thank you very much. I appreciate the time, and I yield 
back. Thank you.
    Mr. Rush. Mr. Griffith is recognized for 5 minutes.
    Mr. Griffith. Thank you very much, Mr. Chairman.
    Picking up on that, talking about bad guys physically 
attacking the pipeline, that's a concern of mine too and I 
visited with some folks, and I know there's other folks doing 
this too, but Corning has a product where they can actually put 
a fiber down on the pipeline as it's being laid and you can see 
if somebody walks up to it, drives up to the pipeline, starts 
digging--I mean, any of those things that would tip you off 
that one of the bad guys might be out there.
    Also has the advantage of because the temperature being 
colder with the gas in the pipeline than the soil around it 
that if there is a leak it picks up that temperature changing 
and identify a leak fairly quickly.
    So along those lines, I know that that's out there and I 
know there's probably some other technologies as well that are 
emerging.
    I am just wondering what you all think the Federal 
Government might be able to do to encourage more new 
technologies like this and then, of course, I know it's not 
your bailiwick. But then we got to convince FERC that it 
probably ought to be there.
    Yes, ma'am?
    Ms. Sames. And I apologize. I am a little passionate about 
technology. I helped revamp the PHMSA R&D program. I then went 
from there to a research consortium.
    So, for me, it's additional funding for technology. We have 
it within PHMSA. We have a little bit within Department of 
Energy. But more technology funding to get us the products that 
we need. The industry is contributing a good bit also.
    We've already mentioned piloting these technologies so we 
can get them into the market faster. All of that will help move 
things forward.
    Mr. Griffith. And talking about the proposed--I know the 
administration has proposed a technology pilot program. You 
know, how do you think that would work? Obviously, you're 
favorable, but how do you think their program would work in 
moving some of this technology forward?
    Ms. Sames. I would hope that it moves things faster--that 
if they have an official program that Congress has approved 
that it allows them to move faster, because right now they're 
doing it but it's at a pretty slow pace.
    Mr. Griffith. And I certainly would support putting more 
funding towards the research. I am big on research and I think 
it's important, and I do think the question that Mr. Pallone 
asked earlier of Mr. Lesniak was that is some of the concerns 
about pipelines causing some of the resistance to new 
pipelines.
    I think the answer to that is, clearly, yes. There's a 
pipeline going through my district, and some folks are going to 
be against it no matter what and there are other reasons to be 
against it.
    But some folks are just worried because of some of the 
safety issues that they've heard about, and the more we can do 
to reassure them I think the better of we are.
    Mr. Black, do you want to make a quick comment on this?
    Mr. Black. Yes. The technology you described is interesting 
and I think it needs to be reviewed regularly by the advisory 
committee groups.
    Mr. Lesniak is on one of them. Pipeline operators are. 
Congress told PHMSA that it needs to put its regulations and 
its cost-benefit and risk assessments before the advisory 
committees.
    I think Congress could also tell them to review research 
and development. Have PHMSA put forward its proposals and hear 
from other organizations that collaboration right now occurs 
but it's not frequent enough. If you all put that in the 
statute that should increase it.
    Mr. Griffith. All right. I appreciate that.
    Now, I am going to go to an area that hasn't been touched 
on yet and just ask if anybody has any ideas. I met with, I 
don't know, a few months back some folks at Virginia Tech, and 
they are doing research related to water and sewer pipes.
    And one of the things that they found was is that the age 
of the pipe was not dispositive nor the material--that one of 
the things that was interesting was the type of soil and what 
environment the pipe was in.
    So I noticed in the bill there are several mentions of the 
age of the pipe and what material it is and the cast iron 
pipes. But at least for water and sewer, they talked about if 
it was in the right type of soil cast iron might last 100 
years.
    In a different type of soil it may not make it to 50 years, 
and you want to make sure you know what kind of soil you're in 
and whether or not, interestingly enough, apparently 
degradation in and around railroads was higher, and I thought 
that was fascinating.
    Is there any research going on in this regard with gas 
pipelines as well to make sure that we're--I mean, we can go 
out there and say you check them every 50 years and that's 
great.
    But if you have got a pipe that's in a soil type or in an 
environment where it would last a hundred why would we spend 
money on that and let's focus on the areas where it's most 
important.
    Ms. Sames. Yes. I mean, on the gas distribution side, we 
are doing a lot on replacement and so you're looking at a 
number of factors and the environment is one of those factors. 
So and the pipe tells you a good bit.
    So if you're going out doing leak surveys which we are 
required to do and checking very particular areas and doing 
more, especially for cast iron and bare steel, when 
temperatures change and that frost level in certain areas of 
the country--I know that down south you don't have it but we do 
up north--that frost level changes, the soil moves.
    So that causes extra strain on the pipe. It's all things 
that have to be taken into account and it's--we've done a lot 
of research in this area.
    Mr. Griffith. Well, and I would hope that any bill that we 
would pass would take into account some of the new technology 
and take into account the fact that not every pipe is the same 
as the pipe in the same--in a different soil type or different 
area.
    Thank you very much. I yield back.
    Mr. Rush. The Chair now recognizes Mr. Kennedy for 5 
minutes.
    Mr. Kennedy. I thank the chairman for having this important 
hearing to address pipeline safety and thank you to our 
witnesses for being here.
    We all recall the devastating events that happened last 
year when a distribution line exploded on September 13th, 
wreaking havoc in three communities in the Merrimack Valley of 
Massachusetts.
    Local residents and first responders were gravely injured, 
homes destroyed, families displaced for months on end. And a 
young man named Leonel Rondon lost his life.
    Ten months later, these communities are still recovering 
from the devastation. I am grateful to my colleague, 
Representative Lori Trahan, for introducing H.R. 2139, the 
Leonel Rondon Pipeline Safety Act to address the issues leading 
to this tragic event. I am proud to be a cosponsor of this 
legislation. I would also like to thank Senator Markey for 
introducing the Senate version.
    Now, Mr. Lesniak, in your testimony you speak to the 
importance of pipeline companies developing and implementing a 
continuous improvement to the safety and management system, or 
SMS.
    You know that the Merrimack Valley tragedy eliminated the 
fact that voluntary systems of SMS weren't Incentivizing all 
companies.
    So, sir, I appreciate the idea of an annual fine on the 
PHMSA as a level of accountability without making SMS 
mandatory. Those who fully embrace SMS should have no problem. 
But do you believe that will be enough of an incentive for 
those that are lagging behind?
    Mr. Lesniak. Thank you.
    You know, there ought to be a regulatory floor and for 
critical safety processes. And so I think those types of safety 
processes should be required and not voluntary.
    Good operators implement them. Bad operators don't.
    Mr. Kennedy. Thank you, sir.
    As you are well aware, there's a $2 million cap on PHMSA's 
penalty authority for civil penalties. Do you believe that the 
fines currently assessed provide sufficient deterrent for 
companies that commit a violation?
    Mr. Lesniak. No, I don't. If you look at it, some of these 
pipelines--for example, there's a pipeline that's being 
proposed in the State of Texas right now. It's a $2 billion 
project. It's going to transport millions of cubic feet of 
natural gas per day. A million-dollar or $2 million fine is a 
drop in the bucket for companies like that.
    Mr. Kennedy. And, sir, I've heard said by some skeptics 
that you, quote, ``can't create a culture of safety.'' But it 
seems to me that Congress has, in fact, forced change where 
industry has failed to take adequate safety steps.
    Do you have any response to those who think that this is a 
fool's errand?
    Mr. Lesniak. I think that you can't regulate necessarily a 
culture of safety. But, again, you can set a floor that makes 
sure that every company meets minimum safety standards and 
that--and make it more ubiquitous across the industry.
    Mr. Kennedy. And a final question for you, sir. Across the 
country and particularly at the State level we are seeing 
concerning efforts to curb the rights of Americans, including, 
particularly, Native communities to raise their voices in 
defense of pipeline safety.
    Often those communities stand to be the most impacted by 
proposed projects such as the Dakota Access projects across 
drinking water and burial grounds for the Standing Rock Sioux.
    The administration's proposal to reauthorize PHMSA goes 
even further than current law in proposing to criminalize 
rightful peaceful protests in the name of pipeline safety.
    I would imagine we can all agree that an effort to sabotage 
or physically damage a pipeline is one thing--gun or explosives 
or, again, some other way to damage the integrity of the actual 
infrastructure--but a very different exercise to use one's free 
speech rights to peacefully protest a proposed construction 
project under construction.
    So, Mr. Lesniak, how can we ensure that balance between 
First Amendment community voices and meaningful dissent are 
protected in our pipeline safety efforts and how can we better 
account for Tribal indigenous rights?
    Mr. Lesniak. I think the Pipeline Safety Trust has spoken 
clearly about if anyone takes action to damage or disrupt the 
operation of a pipeline that's wrong and it's not safe and it 
threatens the public safety and threatens the environment, and 
that ought to be addressed.
    However, legitimate dissent and protests by the public 
should be clearly protected. In the State of Texas, the State 
legislature recently has criminalized legitimate dissent and 
it's wrong and that should not happen.
    But as long as we are protecting the pipelines and those 
operations that's what we should do if it creates a public 
safety threat. Otherwise, Congress should stay out of it.
    Mr. Kennedy. All right. Any additional comments from 
anybody else?
    Mr. Black?
    Mr. Black. AOPL would like to deter attacks on pipelines 
that could harm the environment or the public or the assailants 
themselves.
    We are not trying to deter peaceful nonviolent protests.
    Mr. Kennedy. Appreciate that.
    I yield back. Thank you.
    Mr. Rush. The Chair recognizes Mr. Kinzinger for 5 minutes.
    Mr. Kinzinger. Well, thank you, Mr. Chairman. Again, thank 
you all for being here today. We appreciate it.
    I would like to start with cybersecurity, and some of the 
questions I am going to ask--I know we've already touched on 
these topics, but I do have different questions on them.
    I don't believe we can separate pipeline safety from 
pipeline security. Multiple Federal agencies have a role to 
play when it comes to pipeline cybersecurity.
    Given that the DOE is already the lead sector-specific 
agency for energy and given the fact that they already have 
tremendous experience and resources dedicated to pipeline 
cybersecurity, especially through the National Labs, I think we 
need to address this in the pipeline safety bill.
    So for Mr. Black, Ms. Sames, and Mr. Osman, each of you 
have supported H.R. 370, the Pipeline and LNG Facility 
Cybersecurity Preparedness Act.
    Would any of you have any objection to including it in the 
Pipeline Safety Reauthorization and specifically if you do, 
why? We'll start with you.
    Ms. Sames. We are supportive of the coordination role, 
which is in that bill. So I think there is--I would have to 
see--I am an engineer.
    Mr. Kinzinger. I understand.
    Ms. Sames. That means I need the details.
    Mr. Kinzinger. Yes.
    Ms. Sames. But, in theory, yes, we could probably support.
    Mr. Kinzinger. I am a politician. We need details, too, 
before we commit to anything.
    [Laughter.]
    Mr. Kinzinger. Because it always come back to get us.
    Mr. Black. The public-private collaboration in 
cybersecurity has been good and, as you say, multiple agencies 
should have roles.
    We were proud to support the bill through the committee 
process. We encourage on cyber a holistic approach so that you 
don't have duplication of government agencies, conflicting 
guidance to all of us.
    So we think that means involving intelligence committees, 
transportation committees. I would discourage you from linking 
the two on legislation. We want reauthorization legislation to 
pass.
    I think if you do both of them together, it slows 
reauthorization. That's your prerogative.
    But if you're trying to achieve both, I would recommend you 
do them separately.
    Mr. Kinzinger. OK.
    Ms. Sames. And I agree with Mr. Black on that.
    Mr. Kinzinger. All right.
    Mr. Osman. I agree with my colleagues. You know, we 
advocate for a comprehensive, governmentwide approach to 
pipeline cybersecurity, collaboration and coordination between 
the different agencies that have different important roles.
    I am sure Mr. Black's concerned that, you know, bringing it 
into the reauthorization bill could slow down a timely 
reauthorization. But other than that, it's certainly your 
prerogative.
    Mr. Kinzinger. Understood.
    In December of 2012--in the December 2018 report GAO 
significantly raised concerns about TSA's pipeline security 
program. I am concerned that the TSA is not prioritizing 
pipeline security as they should.
    For example, it's already been mentioned that they have 
over 50,000 employees but only six were assigned to pipeline 
security as of last year.
    Mr. Osman, are you concerned about TSA staffing issues and 
have you made any recommendations to improve that situation?
    Mr. Osman. Thank you for the question. Oh, I am on.
    Thank you for the question. Certainly it's important that 
TSA is the lead safety regulator, has the resources that they 
need.
    Our association, INGAA, along with the other associations 
represented at the table, have made appropriations 
recommendations do increase the funding that TSA has to 
increase the resources that they can bring to the table.
    We have seen over the last year, certainly due to the 
pressure from this committee and others, a concerted effort at 
TSA to adopt the recommendations that the GAO gave them to 
improve their performance.
    They've rolled out a new pipeline cybersecurity assessment 
initiative, which we are participating in actively and it's 
helped a lot.
    Mr. Kinzinger. OK. Great.
    And are you concerned--well, I will say this. TSA conducts 
interviews with operators, known as the corporate security 
reviews. But TSA doesn't track the information or use it to 
measure risk.
    Are you concerned about the way these corporate security 
reviews are being conducted or and do you have any 
recommendations on that level either?
    Mr. Osman. As I mentioned, that program has evolved to this 
newer pipeline cybersecurity initiative. We know that they're 
implementing their recommendations to the GAO, which included 
some of the tracking and data collection that you're talking 
about. So we'll need to keep watching that and see how it----
    Mr. Kinzinger. But you feel like we are on a comfortable 
track with that? A good start at it?
    Mr. Osman. Yes. A good start.
    Mr. Kinzinger. OK.
    Mr. Osman. That's the way we'd put it.
    Mr. Kinzinger. Hopefully, a good ending, too.
    Mr. Black, are attacks on pipelines an ongoing problem and 
how are the attacks on pipeline facilities a threat to safety 
and public--of the public and the environment?
    I am sure you have answered this in numerous ways but----
    Mr. Black. In 2016, there was a coordinated series of 
attacks where people broke chains, opened perimeter fencing, 
and tried to turn valves on pipelines, covering about 15 
percent of our daily crude oil use.
    Thankfully, they did not result in a rupture but they could 
have by improperly forcing closed a valve. 2017 there was an 
attack. 2019 there was an attack.
    There was an attack on a pipeline just before it started in 
operation. If it had started operation without that damage 
being addressed, it would have caused a problem. We believe 
there are loopholes in Federal law on operating--on 
construction and on actions that don't damage or destroy but 
that could that need to be closed by Congress so that we deter 
these attacks.
    Mr. Kinzinger. Thank you, and as a guy that lives on top of 
a bunch of pipelines and near them, they're really important. 
But this is a very important issue as well. So I thank you and 
I yield back.
    Mr. Rush. The Chair now recognizes Mr. Veasey for 5 
minutes.
    Mr. Veasey. Thank you, Mr. Chairman, for holding this 
hearing to talk about pipeline safety. I think that all of us 
can agree that we do not want to lose another life and that we 
do not want to incur any further damage because these pipeline 
explosions can be absolutely devastating, including death.
    And I would also like to thank Chairman Pallone and 
Congresswoman Lori Trahan for their efforts to prevent deadly 
pipeline explosions like the one that happened in the district 
that I represent in Dallas, where we lost 12-year-old Linda 
``Michellita'' Rogers last year in the city of Dallas. We have 
to do everything that we can to, obviously, prevent us having 
another incident like that. I don't know if that's something 
that all of you sitting at the table would agree with.
    One powerful tool we have as lawmakers is the imposition of 
civil penalties to make sure that people are doing everything 
they can to prevent another incident like what happened in 
Massachusetts, like what happened in Dallas, from ever 
occurring again, to make sure that people aren't putting 
profits ahead of people. I think that everyone would also agree 
that you don't want to put profits ahead of people.
    In the State legislature in Texas this year, my former 
colleague, State Representative Rafael Anchia from Dallas, he 
was able to get a pipeline safety bill passed but as a 
companion piece on the Federal end.
    Representative Trahan's Pipeline Safety Act bill would 
increase penalties for companies that violate the law up to 
$200 million for the most egregious violations.
    And I wanted to ask Mr. Lesniak while the civil penalties 
alone cannot prevent tragedies like the ones I just mentioned 
from happening again, in your opinion how would the increases 
in penalties included in the Congresswoman Trahan's bill impact 
the decisions that are made by these pipeline operators?
    Mr. Lesniak. I think anytime that we make substantive 
substantial penalties for bad actors it's a good thing. They 
will be more likely to take it account.
    You know, I work with pipeline operators all the time in my 
role on the technical advisory committee and working with the 
Pipeline Safety Trust in PHMSA and those companies that engage 
in those processes on a regular basis those are generally the 
good operators.
    We write regulations and create penalties for the bad 
actors and you need to make it so that they think twice before 
they don't do things that they know they ought to be doing.
    Mr. Veasey. Pipeline industry associations develop 
operating best practices based on the recommendation of their 
engineers and experts. Where appropriate where do you think 
PHMSA can take advantage of these best practices that improve 
pipeline safety?
    Anyone can answer that.
    Mr. Osman. Thank you for the question. What's important is 
that PHMSA continues to embrace the latest technologies and 
engineering practices that those--that those consensus 
technical standards represent.
    In PHMSA's bill, they draft legislation. They have proposed 
some language along those lines to require the agency to 
continue to be focused on ensuring the latest engineering 
technical standards and incorporated into its regulations, and 
that's important because we have a lot of standards in there 
right now that are many decades old, for example, the 
fundamental gas transmission pipeline standards, ASME--American 
Society of Mechanical Engineers--B31.8S.
    The version that's incorporated in the regulations today 
was written in 2004. There's been five versions published since 
then, each one better than the last.
    So, you know, this is an opportunity to by simply changing 
some references, doing a quick review of the new documents to 
demonstrably improve pipeline safety with relatively little 
effort.
    Mr. Veasey. I know that on the first--at a pipeline safety 
oversight hearing that there was concern about rule making 
taking too long to complete. What do you think that we can do 
to help speed that up and help make that situation better?
    Mr. Osman. Thank you for the question. Now, part of it, as 
my colleague, Mr. Black, mentioned earlier, is doing what you 
all are doing to encourage PHMSA about what the priorities 
really are to get those mandates done.
    We do think that PHMSA made a mistake in years past by 
trying to lump just too many different unrelated initiatives 
together and that slowed down every step in the process from A 
to Z.
    I think also opportunities to look at resource levels in 
PHMSA with provisions like the subcommittee's draft direct hire 
proposal could go a long way to help as well.
    Mr. Black. With your interest in best practices of 
mechanical engineers and other technical experts, you have got 
an opportunity. We've discussed here about best practices that 
have been updated.
    But those updates have not been incorporated in the Federal 
regulations. Those updates require all operators to comply. So 
you have got the opportunity and the administration's 
recommendation to require PHMSA to regularly review updates and 
to decide to incorporate.
    That's Congress setting a priority for PHMSA of harnessing 
new technology. Just as Mr. Osman said for natural gas, the 
same is true on liquids.
    We've got a recommended practice 1160 on integrity 
management inspection and maintenance. Let's get those updates 
rolled into regulations.
    Mr. Veasey. Thank you, Mr. Chair. Yield back the balance.
    Mr. Rush. The Chair now recognizes Mr. Johnson for 5 
minutes.
    Mr. Johnson. Thank you, Mr. Chairman, and thanks for 
conducting this hearing today. Really important topic, and I 
hope that as we move forward our Energy and Commerce majority 
will seek to make this historically bipartisan process just 
that--bipartisan.
    We should not be playing politics with pipeline safety but 
instead, we should be working on a bill that has received 
proper and necessary technical feedback from PHMSA and all 
members of this committee.
    We all want to produce a bill that can help address the 
current challenges and opportunities of our pipeline system. We 
all want a bill that promotes safety, allows for technological 
innovation and correctly addresses emerging physical and cyber 
threats.
    That's the bill we should all be working on and I hope we 
can eventually work together on those issues.
    Ms. Sames, we obviously need to do everything we can to 
minimize events within our pipeline infrastructure. I think 
everyone shares that goal.
    Everyone would also agree that it is incumbent on this 
committee and industry to ensure that we are doing everything 
we can to correctly respond to those incidents when they, 
unfortunately, occur.
    So when pipeline incidents do occur, how do gas utilities 
communicate with first responders and how can we here in 
Congress help improve that communication?
    Ms. Sames. Because our companies--the distribution 
companies are in the communities that they serve it's a much 
closer relationship. We are doing immediate outreach.
    We are doing outreach in advance to make sure that the 
emergency responders in that area know where the pipelines are 
and what's in those particular lines--the distribution lines.
    Because we have so many excavation damages--individuals 
hitting our lines because they're not either calling before 
they dig or they're not abiding the lines--we have a lot of 
opportunities to do emergency response on the distribution 
side.
    So they know us. They know us well. They're coordinating 
with us. We do incident command structure similar to the fire 
departments so that when we are on the scene they know that 
their job is to keep things safe until we get there. Our job is 
to make sure that the pipeline stays safe.
    So it's a nice tag team between the two. On the information 
that they need, it's that close coordination in advance and 
good coordination and communication once on site.
    Mr. Johnson. OK. Can you talk briefly about the importance 
of allowing operators to make--to successfully perform an 
initial assessment after an incident? I mean, what arises if 
someone makes a wrong assessment?
    So tell me--tell me what you think about operators doing 
the initial assessment.
    Ms. Sames. So what could happen if somebody makes a wrong 
assessment and one of our concerns has always been some 
emergency responders are very gung ho. They see a fire. They 
want to make sure that things are taken care of and we try our 
best to make sure that they're not turning valves because as 
was heard earlier, you turn the wrong the valve and many bad 
things can happen.
    So on the assessment after an incident, after we get onsite 
it's what occurred, how did it occur, who was involved. We are 
trying to gather as much information as possible so that we can 
make the right decisions.
    Mr. Johnson. And no one better than the operators are 
poised to do that assessment. Wouldn't you agree?
    Ms. Sames. We are the technical experts.
    Mr. Johnson. Yes.
    Ms. Sames. So we should know our lines. We should be 
familiar with our lines. We should know everything about them.
    Mr. Johnson. OK. All right.
    Mr. Black, a bipartisan concern expressed at the May 1st 
pipeline safety oversight hearing was PHMSA taking too long to 
complete their mandated rulemakings.
    What can we do to help that situation?
    Mr. Black. First, to encourage PHMSA to not lump too many 
complex issues into large rulemakings that overwhelm the 
process.
    Second, help them gain information. We've got a 
recommendation from AOPL that the administration made to follow 
something with some of the motor carrier statute that allows a 
pilot program. PHMSA, at its discretion, can choose certain 
operators to test new technologies and approaches that I 
believe should have an equivalent level of safety. Then they 
can gather information from that.
    Mr. Johnson. Some have expressed concerns that the 
requirement for PHMSA to do a cost-benefit analysis of their 
rule is partially to blame. Do you--do you see that?
    Mr. Black. No, sir. Not at all. It's going to be required 
ultimately because of executive order. It should be done early. 
It should be done and vetted with a stakeholder group as it is 
today with the advisory committees.
    Mr. Johnson. OK. Thank you. I yield back.
    Mr. Rush. The Chair now recognizes the gentleman from 
Arizona, Mr. O'Halleran, for 5 minutes.
    Mr. O'Halleran. Thank you, Mr. Chairman, Ranking Member 
Upton, and our witnesses here today to discuss the legislative 
proposals before us to reauthorize the national pipeline and 
safety framework.
    While I know there are various perspectives being 
represented on our witnesses' panel today, I would like to echo 
the chairman's remarks and that this is simply the continuation 
of our conversation on pipeline safety and this bill will 
evolve from where it is today.
    I look forward to working with my colleagues on both sides 
of the aisle on a bipartisan framework which truly provides 
public safety and oversight of our pipeline infrastructure.
    Ms. Sames, you mentioned during part of the discussion on 
pipeline safety--you used the word proper resources. Do we have 
the proper resources?
    Is there the proper funding out there in the field from 
both the Federal Government, the State government, and others 
that--in the industry to be able to address the safety issues 
for our citizens?
    Ms. Sames. I think PHMSA could use some additional funding. 
I also think that they've done a really good job revamping 
their training program for both Federal and State regulators.
    I think it can--I think additional funding there can also 
help. I've heard concerns that it can take a little while for 
the inspectors to get through that training.
    So additional resources would help with that training 
portion. Also, research--you have already heard me say I think 
they need additional money for research and development so that 
they can implement pilots, move technology forward, implement 
pilots, and get the technology out in the field faster than it 
is currently.
    On the State side, the States need more funding. They need 
the ability to pay their inspectors more. They need the proper 
training. So I am a fan of both.
    Mr. O'Halleran. Thank you.
    Mr. Lesniak, I think it was you that mentioned bad actors. 
How do you define bad actors and what is the industry doing 
within itself to identify who these are and to address those 
issues?
    Mr. Lesniak. You know, over the last 20 years that I've 
been involved in pipeline issues, you know, I've dealt with 
operators that are really good. They're very proactive.
    They go well above and beyond the minimum standards in the 
regulations and I've also dealt with pipeline operators that do 
the bare minimum and sometimes not even that, and that's how I 
would define a bad actor is an operators that's just doing the 
bare minimum or less.
    Mr. O'Halleran. And what is the industry, to your 
knowledge, doing to address that and call out those bad actors?
    Mr. Lesniak. You know, I think my colleagues here on the 
panel, you know, their industry is doing training. They're 
doing outreach. But, you know, I suspect that they would tell 
you that you can lead a horse to water but you can't always 
make them drink.
    Mr. O'Halleran. Well, I will go down that road another 
time.
    [Laughter.]
    Mr. O'Halleran. Mr. Osman, I just wanted to point out that 
you also mentioned the concern with some of the financial 
issues as it relates to getting regulatory issues taken care 
of, and I just wanted to identify the overall issues out here.
    Mr. Black, in PHMSA's recent legislative proposal to 
Congress for the reauthorization of the Pipeline Safety Act it 
includes the authority for PHMSA to evaluate and implement a 
safety incentives program for operators who voluntarily exceed 
minimum Federal standards for pipeline safety.
    It also proposes a pipeline safety technology program to 
test the latest technologies in controlled real-world settings.
    Do you believe these proposals deserve more consideration 
as we move beyond today's proposed discussion drafts? Why or 
why not?
    Mr. Black. Thank you, Congressman. The second one you 
mentioned, the pilot program, we particularly encourage. We 
think it's going to lead to quicker rule makings and better use 
of technology.
    We suggest two additions to what the administration 
suggested: one, reporting to Congress and the public about the 
lessons from them; two, a requirement that they roll those 
positive lessons into future regulations.
    The first one that you mentioned is interesting on--in 
safety incentives. It may be more gas focused. I would be 
interested to learn more about that. And on your question about 
resources, the problems that we have heard is PHMSA's 
difficulty through the Federal hiring process and the salaries 
that it can pay to hire quality inspectors and then to retain 
them when they have lucrative options, including in the private 
sector.
    So we recommended Schedule A hiring authority, if that 
helps. The direct hire authority from the subcommittee's 
discussion draft, that could be the way to go. We've supported 
that as well.
    We want PHMSA to be able to attract and retain quality 
inspectors.
    Mr. O'Halleran. Well, given the time, I have some more 
questions. I will put those in writing. But I just--my 
background in law enforcement tells me that you have to have 
consistency.
    You have to have enough personnel to identify the issues 
and to address them in a timely manner and you have to be 
proactive about these issues.
    And it is apparent, now that all four of you have 
identified funding as a crucial issue and retention now also, 
that we need to find a way to address those issues.
    And I yield.
    Mr. Tonko [presiding]. The gentleman yields back.
    The Chair now recognizes Representative Flores for 5 
minutes.
    Mr. Flores. Thank you, Chairman, and Leader Upton, I 
appreciate you all holding today's hearing. I share many of the 
concerns that have been expressed on this side of the aisle 
today at the dais regarding the--this discussion draft and the 
process by which it has come in front of us today.
    In particular, I am still waiting on information from the 
May hearing with PHMSA, and I understand the majority has not 
submitted our written request yet to the witnesses from that 
hearing, and those requests included my own so I am hoping that 
the majority will hurry up and get that to the witnesses.
    It seems reasonable to me that before we start working on 
legislation we'd at least have a complete record from the prior 
hearing before we move forward in the legislative process.
    I would first like to talk about pipeline vandalism. PHMSA 
has proposed strengthening the existing criminal measures for 
attacking a pipeline facility. We've also received a letter 
that Mr. Black spoke of earlier in his opening statements in 
support of this provision from some of the unions that are 
involved in the construction operation of pipelines.
    And, Mr. Chairman, I would like to ask for unanimous 
consent that this support letter from these four unions be 
entered into the record.
    Mr. Tonko. Without objection.
    [The information appears at the conclusion of the hearing.]
    Mr. Flores. Thank you, Mr. Chairman.
    I support this proposal from PHMSA, especially in light of 
several high profile attacks on pipelines involving so-called 
valve turners.
    These dangerous stunts not only endanger lives; they damage 
property. They damage the environment and can have significant 
economic consequences.
    To all our witnesses, do you agree that this activity is 
dangerous?
    Ms. Sames?
    Ms. Sames. Yes.
    Mr. Flores. OK. Mr. Lesniak?
    Mr. Lesniak. Yes.
    Mr. Flores. OK. Mr. Black?
    Mr. Black. Yes.
    Mr. Flores. Mr. Osman?
    Mr. Osman. Absolutely.
    Mr. Flores. Would each of you support strengthening 
criminal standards to discourage people from damaging pipeline 
facilities?
    Ms. Sames?
    Ms. Sames. Yes.
    Mr. Flores. Mr. Lesniak?
    Mr. Lesniak. We'd need to look at the proposal.
    Mr. Flores. OK. Mr. Black?
    Mr. Black. Yes.
    Mr. Flores. Mr. Osman?
    Mr. Osman. Yes.
    Mr. Flores. OK. Great. Thanks.
    Mr. Black, Ms. Sames and Mr. Osman, pipelines are among--we 
all know this--pipelines are among the safest and most 
efficient way to deliver natural gas and petroleum products to 
the consumer.
    What are some of the significant trends across the industry 
to improve pipeline safety? If you can spend about 20 seconds 
each on what some of the significant trends are to improve 
safety today?
    Ms. Sames. When I look at the distribution incidents, the 
ones that cause death and injury, the leading two causes are 
excavation damage and vehicles hitting above-ground pipelines.
    Those are the top two. So there's a lot of effort to 
promote 811--Call Before You Dig. It's a free service. We need 
more people calling before they dig.
    On individuals hitting our lines with vehicles, we are 
trying to figure out how do you stop people from going through 
a field and hitting a pipeline. I am still struggling with that 
one.
    Mr. Flores. No, I understand.
    Mr. Black?
    Mr. Black. So we are the safest method of transporting 
fuels but we are not at the goal of zero incidents that we want 
to be. Those trends are reviewed every year in our strategic 
plan.
    Currently, we are very excited about two things: one, 
increased technology through in-line inspection devices, and 
two, improve safety culture through industry wide 
implementation of safety management systems.
    Mr. Flores. Mr. Osman?
    Mr. Osman. In the early 2000s, Congress directed PHMSA to 
implement an integrity management program. Since that time, 
we've seen great improvement in the areas that that program was 
designed to address--threats like corrosion, threats like 
cracking on pipelines--and PHMSA is very close to completing 
the rulemaking to expand that to a much wider degree of 
pipelines and also to implement newer technologies. So we are 
excited to see that happen.
    Mr. Flores. In the last minute that I have left, Ms. Sames, 
as you know, 43 States and the District of Columbia have 
pipeline replacement programs as part of their statutes.
    In Texas, we have a risk-based program that requires 
operators to survey their pipelines for the greatest potential 
threats for failure and to make replacements.
    Our pipeline company is required to develop a prioritized 
schedule for replacement and in some ways our Texas regulations 
are more--Texas regulations are more stringent than PHMSA's.
    Generally speaking, how are these pipeline replacement 
programs funded and what are some of the constraints to further 
accelerate the replacement of aging pipelines?
    Ms. Sames. So each operator is working closely with our 
State commission on replacement programs. They're proposing 
here's what we want to replace.
    Here's the time line for replacement. It's all risk-based. 
So that--and try to be done in a way at the least cost to the 
customers.
    On faster, that's a bit of a challenge because you need 
qualified individuals in order to do the work. You do it too 
fast, you get--I don't want that. So there's a good balance. 
There needs to be a balance between how quickly you replace 
with a qualified workforce so you have your quality.
    And going back to your last question, I apologize; none of 
us mentioned that the other thing that we are doing to advance 
is sharing of information. We do it through conferences, 
workshops, technical papers. So something else.
    Mr. Flores. Best practices you're talking about?
    Ms. Sames. That is correct.
    Mr. Flores. OK. Thank you for--all the witnesses for being 
here today and I yield back the balance of my time.
    Mr. Tonko. The gentleman yields back.
    The Chair recognizes himself for 5 minutes.
    My understanding is that the 2011 Pipeline Safety bill 
included a number of required rule makings for PHMSA, many of 
which are not completed 8 years later, and I know that 
Representative McNerney had asked the panel about the reasons 
for those delays.
    But, Mr. Lesniak, I want to come back to you and ask you to 
more fully develop, if you would, PHMSA's cost-benefit 
requirements. Are they a hindrance to getting required rule 
makings completed in a timely manner and can you give us some 
more information in that regard?
    Mr. Lesniak. You know, as I said before, the Pipeline 
Safety Trust does think that that is one of the significant 
hindrances. There are other issues as well.
    But it's a duplicative process and unreasonably slows the 
process, and I think if that part of it was eliminated it would 
help move things along.
    Mr. Tonko. And what areas of duplication are the most 
concerned?
    Mr. Lesniak. There's an OMB--there's a similar cost-benefit 
analysis that's required by the OMB, and so why are we doing it 
two times. You know, we are not clear on that.
    Mr. Tonko. OK. I thank you for that.
    And what about NTSB itself? What about recommendations 
there? Are there still outstanding recommendations that haven't 
been implemented?
    Mr. Lesniak. There are. There are recommendations from NTSB 
that go way back, many that are supported by the industry and 
that--I think that NTSB recommendations, because they're an 
independent organization from the industry--from PHMSA itself, 
I think those recommendations ought to be taken seriously and 
prioritized for implementation.
    Mr. Tonko. And does the bill that we address here today 
with these hearings help improve that in any way?
    Mr. Lesniak. It does, but it could go further. There are 
specific recommendations for providing information to emergency 
responders that NTSB has recommended that are not included and 
we think that those should be included.
    Mr. Tonko. OK, and is leak detection technology an 
effective method to protect communities?
    Mr. Lesniak. It is, and it ought to be required with a 
standard for the effectiveness of that leak detection 
technology.
    Mr. Tonko. And so stronger requirements----
    Mr. Lesniak. Yes.
    Mr. Tonko [continuing]. For that detection system would be 
an improvement for----
    Mr. Lesniak. Yes.
    Mr. Tonko. Do any of our other witnesses have 
recommendations on NTSB's recommendations?
    Yes, Mr. Osman.
    Mr. Osman. Thank you for the question.
    We agree. NTSB recommendations are important and should be 
given great consideration by PHMSA, by the industry, by all of 
us. As we've said a few times, the pending rule makings that we 
believe PHMSA will complete this year will close out many 
outstanding NTSB recommendations and we think that's critical.
    Mr. Tonko. Mr. Black, you had some comments you wanted to 
share?
    Mr. Black. The primary discussion we are having with the 
NTSB right now is they're encouraging operators of all 
different pipeline segments to implement safety management 
systems.
    We are doing a lot of workshops. We are encouraging 
pipeline operators to do that. The NTSB said the response by 
the industry exceeded expectations and we are learning from 
them.
    Mr. Tonko. OK. Thank you very much.
    And Ms. Sames?
    Ms. Sames. Yes, and the only thing that I would add is with 
the NTSB recommendations there--we are typically looking at 
what's the intent behind that particular recommendation.
    There are some recommendations that may not be practical in 
the real world and those--in the conversations with them 
they'll say, you know, we are looking further out; where could 
technology be in 10 years, 15 years, 20 years. Whereas the 
industry is looking at what can we do right now to meet the 
intent of what you want.
    So I am always looking at how can I meet what you will want 
but maybe in a more practical way.
    Mr. Tonko. OK. Is there an example that you could share?
    Ms. Sames. Sure. For example, the NTSB had a recommendation 
to make all pipelines piggable and when I looked at it I said, 
well, there's two options.
    You can either dig up a lot of pipelines and replace them 
or you can create a new technology that will get through all 
the pipelines, because right now not all pipelines are 
piggable.
    You cannot run an inline inspection in all pipelines 
because it's not--because of lack of pressure, because of 
turns, because of valves. There's a lot of different criteria 
that don't make a certain pipeline piggable. But if we advance 
technology we can get there.
    Mr. Tonko. Thank you. Thank you very much.
    The Chair now recognizes Mr.--Representative Walberg for 5 
minutes.
    Mr. Walberg. Thank you, Mr. Chairman. And today's hearing 
is very important. I think we all agree with that, and while I 
share some of the concerns of my colleagues about process and 
policy in the--in the discussion draft, I am hopeful that we 
can find bipartisan consensus as we move forward and we thank 
the panel for being here to help us in that process.
    Mr. Osman, in your testimony you emphasize the importance 
of direct assessment. It seems like we should be adding tools 
to PHMSA's toolbox, not taking them away.
    Can you describe what they are, these tools, and when they 
are most appropriate for use?
    Mr. Osman. Sure. Thank you.
    Direct assessment is an important safety technology in our 
toolbox. It involves looking for the precursors that might 
predict potential corrosion on a pipeline and going out and 
making excavations and actually looking at the pipe to 
understand if it's actually occurring.
    It's a tool that we use when other types of assessment 
methods are not possible or not available. My colleague, Ms. 
Sames, just mentioned certain pipelines that can't accommodate 
internal inspection devices. That's one example of when we 
might use that technology and, you know, there's just always 
going to be certain areas of the pipe they can't use those 
internal inspection devices.
    Also, sometimes there's a pipeline that cannot be shut down 
without having significant impacts to the folks who rely on 
that natural gas. So you wouldn't want to use an assessment 
method like hydrostatic pressure testing that requires a 
pipeline shutdown. It's another example of a good opportunity 
to use a direct assessment.
    Mr. Walberg. Mr. Black, how does direct assessment compare 
to other assessment methods in terms of preventing future 
pipeline integrity issues as opposed to finding existing 
problems?
    Mr. Black. Well, for liquids it's also an important tool in 
areas that cannot be pigged. Example is facility piping where 
you still want to do that type of inspection but you can't get 
an inline inspection device there.
    So we would not support a provision to eliminate that 
important tool. It wouldn't help safety.
    Mr. Walberg. OK.
    Ms. Sames, are there situations where direct assessment of 
pipelines is more appropriate than other methods when 
conducting pipeline integrity assessments?
    Ms. Sames. Direct assessment is a predictive model. It's 
predicting where corrosion should be and where you have the 
potential for corrosion to occur in the future, whereas for 
inline inspection it's what's already occurred.
    So if you're an operator that wants to predict where 
corrosion could be occurring you want direct assessment because 
it's helping you with those predictions and you're also digging 
up the line when you're doing direct assessment to confirm what 
you're finding.
    Mr. Walberg. OK.
    Moving on and switching gears here a little bit, Mr. Osman, 
in PHMSA's draft proposal there was a placeholder for a 
Voluntary Information-Sharing program.
    This is something I am very interested in and would like to 
get stakeholder feedback on. So do you think Congress should 
authorize such a program in our pipeline safety reauthorization 
this Congress?
    Mr. Osman. Yes, absolutely. That would go a long way to 
helping us share the information we need to prove our safety 
performance.
    Mr. Walberg. Mr. Black?
    Mr. Black. Yes, we'd agree. We'd encourage Congress to look 
at the report issued by a multistakeholder group that took 
years to work on this. Not everything in the administration 
proposal included what the report includes.
    Mr. Walberg. OK. Ms. Sames?
    Ms. Sames. Yes, and the administration bill, as Mr. Black 
indicated, doesn't quite go far enough. In my opinion, for 
example, it doesn't include distribution systems.
    And so representing the distribution industry, we've been 
pushing for that sharing of information to go throughout the 
entire network.
    Also, make sure the protections are there so that 
individuals sharing the information know they're protected from 
voluntarily providing safety concerns, safety issues.
    They are findings very similar to the FAA, making sure 
that's in place, and then finally, incentives. If I am an 
operator and I am concerned that not all the protections are 
there, I am probably going to be hesitant to share information.
    So anything that can encourage the sharing of information, 
even if it's as simple as PHMSA saying we are getting 
information from this particular operator, that would be good.
    Mr. Walberg. Other areas, Mr. Black and Mr. Osman, on this 
liability protection that you would suggest?
    Mr. Black. Well, we would encourage PHMSA and Congress to 
encourage PHMSA to encourage voluntary self-reporting so that 
pipeline operators will identify, disclose, correct.
    Right now they have that discretion but they use it very 
infrequently and it's not providing the incentive that it 
needs. That's an option to improve safety.
    Mr. Walberg. Well, my time has expired so I yield back.
    Mr. Rush [presiding]. I want to thank the gentleman for 
yielding back.
    That concludes our panel and I want to thank each and every 
one of you for joining us today and for sharing your time and 
your thoughts, your insights with us, and we will continue to 
work with you as we proceed in the future.
    Thank you so very much.
    There's a request for unanimous consent to enter into the 
record the following letters and other documents from 
associated entities, including a letter from the National 
Society of Professional Engineers; a letter from Aclara 
Technologies, LLC; a letter from the American Petroleum 
Institute; a letter from the GPA Midstream Association; a 
letter from the International Union of Operating Engineers, 
Laborers' International Union of North America, the North 
American Building Trade Unions and United Association of 
Plumbers and Pipefitters; an analysis and draft proposal of the 
Protecting Our Infrastructure of Pipelines and Enhancing Safety 
Act of 2019 from the Pipeline and Hazardous Material Safety 
Administration; technical drafting assistance of the Safer 
Pipeline Act of 2019 from the Pipeline and Hazardous Materials 
Safety Administration; and finally, a letter from the National 
Association of Corrosion Engineering.
    And without objection, this is so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Rush. I want to thank again the witnesses and I will 
remind the Members that, pursuant to committee rules, they have 
10 business days to submit additional questions for the record 
to be answered by the witnesses who have appeared, and I ask 
each witness to respond promptly to any such questions that you 
may receive.
    Seeing a consent from the witnesses, at this time the 
subcommittee stands adjourned.
    [Whereupon, at 12:52 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    

                        [all]
</pre></body></html>
